<html>
<title> - IMMIGRATION POLICY: AN OVERVIEW</title>
<body><pre>[Senate Hearing 107-249]
[From the U.S. Government Printing Office]



.                                                       S. Hrg. 107-249
                    IMMIGRATION POLICY: AN OVERVIEW

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 4, 2001

                               __________

                          Serial No. J-107-12

                               __________

         Printed for the use of the Committee on the Judiciary






                        U.S. GOVERNMENT PRINTING OFFICE
77-276                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JEFF SESSIONS, Alabama               RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                CHARLES E. SCHUMER, New York
MITCH McCONNELL, Kentucky            RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                      Sharon Prost, Chief Counsel
                     Makan Delrahim, Staff Director
         Bruce Cohen, Minority Chief Counsel and Staff Director
                                 ------                                

                      Subcommittee on Immigration

                    SAM BROWNBACK, Kansas, Chairman
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York
MIKE DeWINE, Ohio                    RICHARD J. DURBIN, Illinois
                                     MARIA CANTWELL, Washington
                 James Rowland, Majority Chief Counsel











                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Brownback, Hon. Sam, a U.S. Senator from the State of Kansas.....     1
DeWine, Hon. Mike, a U.S. Senator from the State of Ohio.........    71
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.    70

                               WITNESSES

Dickson, Elizabeth C., Manager, Immigration Services, Ingersoll-
  Rand Company, and Chair, Subcommittee on Immigration, U.S. 
  Chamber of Commerce, Woodcliff Lake, NJ........................    62
Kenney, Jennifer, Director, Global Deployment Shared Services, 
  PricewaterhouseCoopers, Chicago, IL............................    38
Leiden, Warren R., Berry, Appleman and Leiden, on behalf of the 
  American Immigration Lawyers Association, San Francisco, CA....     6
Moore, Stephen, Senior Fellow, Cato Institute, Washington, DC....    16
Munoz, Cecilia, Vice President, Office of Research, Advocacy and 
  Legislation, National Council of La Raza, Washington, DC.......    44
Narasaki, Karen K., President and Executive Director, National 
  Asian Pacific American Legal Consortium, Washington, DC........    51










                    IMMIGRATION POLICY: AN OVERVIEW

                              ----------                              


                        WEDNESDAY, APRIL 4, 2001

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

 OPENING STATEMENT OF HON. SAM BROWNBACK, A U.S. SENATOR FROM 
                      THE STATE OF KANSAS

    Present: Senators Brownback and Durbin.
    Chairman Brownback. I will call the hearing to order. Thank 
you all for being here today. I want to welcome all of you to 
this hearing on Immigration Policy: An Overview.
    This will be, I hope, an informative hearing for members of 
the Subcommittee and members of the Senate, in general, for 
information, a number of whom I hope will be coming to the 
hearing today.
    I would like to make a few opening remarks. Then if any 
members show up before we go into the panel discussion, I will 
turn to them for opening remarks, and if not we will proceed on 
to the panel. I understand one of our panel witnesses is still 
in transit from the airport, but will be here shortly.
    America is a nation of immigrants. That is what Ronald 
Reagan reminded us of in his first address to the Nation. 
President Reagan saw a vision and always envisioned America as 
a shining city on a hill, and in his mind it was a city that 
teemed with people of all kinds living in peace and in harmony. 
Then he said, ``And if this city has walls, the walls have 
doors, and the doors are open to those with the energy and the 
will and the heart to get in. That is the way I saw it, that is 
the way I see it.'' And that is the way I see it, too.
    America's greatest strength remains in its openness to new 
ideas and new people. That openness explains why the United 
States is powerful, influential, and growing. Nicolas 
Eberstadt, a demographer at the American Enterprise Institute, 
wrote recently that ``America's demographic prospects would 
seem to support, or even enhance, U.S. global influence in the 
years ahead.'' The reason? Immigration. He points out that 
while other developed countries will, on balance, shrink by 15 
percent between now and 2050, the United States will grow by 40 
percent, remaining the third largest country in the world, 
behind India and China.
    But more than numbers, legal immigration brings energy, 
vitality and innovation. An Alexis de Tocqueville Institution 
study by Phil Peters showed that immigrants create or co-invent 
one in five U.S. patents. Twelve percent of the Inc. 500, 
America's fastest growing private companies, were started by 
immigrant entrepreneurs.
    To harness the energy and vitality of immigrants, we need 
to improve our current immigration system. As the new Chairman 
of this Subcommittee, I look forward to working with my 
distinguished ranking member, Senator Kennedy, with Senator 
Durbin and others, many of whom have had years of experience on 
these important issues, as well as all of my colleagues on both 
sides of the aisle on this important topic.
    As chairman, I will work with the administration and my 
colleagues on legislation to produce fundamental reform of the 
Immigration and Naturalization Service, the INS. Such reform is 
sorely needed. I want to thank, in particular, Senator 
Feinstein for her leadership on addressing immigration 
processing backlogs in last year's H-1B legislation.
    I might just note parenthetically that in my own State 
office work, constituent services work back home, the INS is 
the second leading problem set of cases that I deal with, and 
not in a pleasant way frequently. It is very difficult, time-
consuming, problematic issues that they raise and that we have 
to deal with. So I am looking forward to that change in the way 
INS does work.
    I think all of us realize that there is more work ahead. To 
address the inordinate delays at INS, I support President 
Bush's proposal to require INS to process immigration and 
naturalization applications within 180 days and temporary visas 
within 30 days. I hope that once those deadlines are achieved 
we can work to get the Department of Labor and INS process 
applications in even less time.
    There is work to do in other areas as well. Some estimate 
that nearly half of the labor in American agriculture may not 
be working legally in the United States. If that is indeed the 
case, then something is broken. Growers, farm workers, 
Republicans and Democrats have been working, and should keep 
working toward legislation that meets the needs of farmers, 
farm workers, and the American economy.
    In an area of particular interest to me, we must also look 
at the need to attract more people to rural areas of our 
country, particularly in rural areas that are depopulating, and 
to help residents of rural areas find the medical personnel 
that they need to receive proper health care.
    I plan to work closely with the administration in three 
important foreign policy areas. First, I am heartened by the 
recent meeting between President Bush and Mexican President 
Vicente Fox. This morning, Senator Kennedy and I met with the 
Foreign Minister of Mexico on the issue of establishing a more 
orderly migration process between the United States and Mexico.
    Second, under the prior administration, U.S. refugee 
admissions fell by 40 percent from the last year of President 
George Bush's administration. I will press the new 
administration to reverse that unfortunate trend to ensure that 
America is providing a safe haven for victims of persecution in 
line with our tradition as a generous, compassionate nation.
    Third, I look forward to working with the administration to 
implement fully the sex trafficking bill that Congress passed 
last year to deal with the victimization of women around the 
world.
    At the turn of the century, critics said that Italians and 
East Europeans would never become Americans. Today, the same 
arguments are made against Latinos, Asians, and other 
immigrants. Behind the rhetoric, the critics' arguments boil 
down to this: Immigrants aren't good enough to join us and 
America is not strong enough to absorb them. History teaches us 
that nothing could be more wrong.
    When the Pilgrims set out for America, they sought a land 
where they could work hard, pray in peace, and enjoy the fruits 
of their labors. Nearly 400 years later, the same can be said 
of today's immigrants. America will prosper with policies that 
encourage legal and orderly migration, and provide timely 
service to those who play by the rules and seek to join us as 
fellow Americans. America is best when we appeal to the hope in 
men's hearts rather than the fear in men's eyes.
    These are the sorts of policy tones and issues that I hope 
to raise in this Subcommittee during the 2 years chairing this 
Subcommittee, and possibly more in the future. This is the 
first of many hearings that we will hold on topics regarding 
immigration as we hope to move major legislation, some of which 
I have identified here.
    I look forward to working with many of you who are here 
today and interested in this topic, and certainly with the 
panelists who are here and certainly with the members who are 
on the dais or are soon to be here.
    Let me, before we proceed to the panel, ask Senator Durbin 
if he has any opening comments that he would like to make.

 STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM THE 
                       STATE OF ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman. I am 
glad to be with you at the first meeting of this important 
Subcommittee. I think immigration has always been a timely 
topic in America. It is certainly timely in the year 2001.
    A few steps away from this hearing room is my office in the 
Dirksen Building and I have on display there a number of things 
that mean a lot to me personally, but I think one of the most 
valued objects in that office is my mother's naturalization 
certificate. She came to this country at the age of 2 from 
Lithuania. Her mother brought her over with her brother and 
sister.
    It is interesting to note that my grandmother only spoke a 
few words of English and never really learned the language. My 
mother spoke Lithuanian and English, and I can't speak very 
many words in Lithuanian. I think that is the story of American 
immigration and what happens to successive generations.
    It always has meant a lot to me that at one time in the 
history of the United States that my family had an opportunity 
to come here, and I like to think that our family, my brothers 
and I and all of our kids and grandkids, have paid back that 
favor from a Nation that opened its arms to people to come from 
overseas.
    In my office in Chicago, I would say that 75 percent of our 
case work relates to immigration; it is overwhelming. There are 
times when I am on the phone to the INS calling every possible 
level to try to get them to blast through and either make a 
decision or make the right decision, and some of these cases 
are heart-breaking. The laws that we have written out here are 
not in touch with reality in terms of many of the people who 
are here in the United States who are making a great 
contribution and can make a great contribution.
    In the last session of Congress, I was the sponsor of 
something known as the NACARA Parity Act--some of you who know 
this subject are familiar with it--to create an equal 
opportunity for Central American and Haitian nationals in the 
United States to adjust their status. We give that opportunity 
to some, to those who come from Cuba and Nicaragua. We don't 
offer it to others. We ought to have a consistent ethic when it 
comes to this question.
    If we are going to have compassion for victims of 
totalitarianism, does it make that much of a difference whether 
their oppressor is Cuban or Nicaraguan or Haitian or 
Guatemalan? Think of it in terms of the victims who are coming 
here and asking for a chance to be part of America.
    The defeat of our legislation last year does not discourage 
me. I think there is a lot more that we can do. I think we need 
to address questions or due process in immigration, and I know 
the panel will address them. Two laws we enacted in 1996 have 
had serious negative consequences for a lot of innocent people.
    The Illegal Immigration Reform and Immigrant Responsibility 
Act and the Antiterrorism and Effective Death Penalty Act 
certainly have high-sounding names, and I think that is why a 
number of people voted for them, but unfortunately their 
consequences are not that inspiring--mandatory detention of 
people when detention makes absolutely no sense at all, 
retroactive application of grounds of removal, an overly broad 
definition of aggravated felony, the effective elimination of 
administrative and judicial review for immigrants in removal 
proceedings.
    Last year, the House of Representatives passed bipartisan 
legislation that started to undo some of the inequities in this 
law, but it never moved in the Senate. I hope that with the 
help of this Subcommittee, Chairman Brownback, Senator Kennedy, 
and others, we can make a change.
    I also have to tell you that the backlogs in adjudication 
at INS are just heart-breaking when you look at the actual 
consequences on a lot of families. We just can't allow these 
cases to stack up and ignore the pain that we are causing to a 
lot of people who are doing their best to follow the laws in 
our country. I know Senator Feinstein is proposing to spend 
some more money in this area, in INS services, and I certainly 
support her on the appropriations committees.
    Another area of difficulty is the inadequacy of immigration 
preference systems to meet the needs of our constituents and 
their loved ones. Too few numbers are available in the family 
preference system to permit U.S. citizens and permanent 
residents to reunite with their loved ones in a timely manner. 
I think we should address that.
    Finally, Mr. Chairman, I have been deeply troubled by 
reports I have received of children, some of them high school 
valedictorians, who were brought to the United States by their 
parents or others through no choice of their own as babies and 
infants, have lived all of their lives in the United States, 
but who are undocumented and cannot continue their lives or 
education once they graduate from high school. Indeed, instead 
of being able to continue their education, they face 
deportation.
    I know this one personally: a young lady who is a high 
school senior in the city of Chicago who is considered a 
musical prodigy who wanted an opportunity to apply to Juliard 
and was offered a scholarship so long as she completed the 
application, and came to realize for the first time in her life 
she was not a legal citizen in the United States. Her recourse: 
go to Korea, where she has never been, and live her life there. 
I believe our Nation can do better than this.
    I hope the Subcommittee will work with me to address these 
questions, and I hope that we will have a positive attitude 
toward immigration. I believe we should say with pride that 
America is a Nation of immigrants. As I travel across my State, 
and certainly in the city of Chicago I meet some of the most 
inspiring stories you can imagine, particularly when I talk to 
cab drivers.
    I always ask cab drivers in Chicago, ``where are you 
from?'' Well, most of them are from Nigeria, but those who are 
not are from all over the world, people with medical degrees 
and engineering degrees who are hacking cabs for a chance to be 
part of America, who listen to Public Radio night and day just 
like they did back home, who really know more about politics 
than most people who can vote, and many of them can't, who just 
want a part of this dream. That is what this Subcommittee is 
all about.
    Thanks, Mr. Chairman.
    Chairman Brownback. Thank you for the eloquent statement.
    Our first panel consists of Warren Leiden and Stephen 
Moore. Warren is a partner in a San Francisco law firm that 
does corporate immigration law. He has been involved in the 
immigration field since 1980. Mr. Leiden is a member of the 
Board of Governors of the American Immigration Lawyers 
Association and is a recognized expert on employment-based and 
other immigration matters.
    Our next witness on this panel is Stephen Moore, an old 
friend of mine, a Senior Fellow at the Cato Institute. He is an 
economist with a special focus on immigration. He is the author 
of two recent studies on the fiscal impact of immigration, the 
most recent being ``A Fiscal Portrait of the Newest American.'' 
He has coauthored a book on the same subject, called Still an 
Open Door: U.S. Immigration Policy and the American Economy.
    Gentlemen, thank you for being here. This is the first 
hearing that I have hosted and chaired as Subcommittee 
chairman. It is a scene-setter hearing and I hope you will 
oblige us with your testimony of being kind of a scene-setter 
for what the immigration picture is in America and what you 
hope it will be.
    Mr. Leiden?

 STATEMENT OF WARREN R. LEIDEN, BERRY, APPLEMAN AND LEIDEN, ON 
  BEHALF OF THE AMERICAN IMMIGRATION LAWYERS ASSOCIATION, SAN 
                     FRANCISCO, CALIFORNIA

    Mr. Leiden. Thank you, Mr. Chairman and distinguished 
members of the Subcommittee. I want to thank you for the 
opportunity to participate today in this overview of 
immigration policy.
    U.S. immigration policy is unique in that it is based on 
written law and statutory criteria, different than any other 
country in the world. It is highly regulated, it has strict 
numerical limits, and it has bright-line rules, some of which 
are very unforgiving.
    There are three main types of immigration: family 
sponsored, employment-based, and refugee and asylum protection. 
While all three remain relevant as the main pillars of our 
immigration policy, the structure of each of these is out of 
date, and I would suggest overly restrictive.
    We need modernization in our immigration policies, and I 
think you can see this in the fact that in every one of the 
three areas it is overly complicated, we have substantial 
backlogs, and they are subject to a patchwork of restrictions 
that were imposed over the last 20 years that sometimes are 
contradictory. All three areas will need a review of numerical 
limitations and they are ripe for streamlining and 
simplification.
    Family sponsored immigration provides for the immigration 
of the spouses and minor children of U.S. citizens and lawful 
permanent residents, as well as the adult children and siblings 
of U.S. citizens only. Let me use an example of a situation 
very common in family immigration.
    The spouse and minor child of the lawful permanent resident 
has a quota limit now. This is the spouse of a lawful permanent 
resident. The quota limit requires a wait of at least 4 years 
before they can file their adjustment application. So it poses 
so many families with the terrible choice of do you obey the 
immigration law or do you keep your family together?
    Even after they finally reach the point where they can file 
their green card application, the adjustment process, the final 
stage to get the green card, is taking more than a year or more 
than 2 years. You get an employment authorization card at that 
point, but it is only granted for 1 year, so almost everyone 
has to file a renewal and then file a renewal. It is a good 
example of an area where we don't have a policy that is 
matching the reality.
    By definition, these children are under 21, but if they are 
close to 21 there is a race for the approval because if they 
final approval isn't granted before the child turns 21, they 
drop out of that category and they go to a new category with a 
much longer wait. The INS has done a lot to try to expedite 
these cases, but they do slip through the cracks. I have seen 
them in my own office. Good intentions, but if you don't have 
the approval by the 21st birthday, you are just out of luck and 
there is no way to get around it. In each and every one of the 
family categories, there is a substantial backlog, ranging from 
as little as a year to as much as 10 years and more.
    On the employment-based side, employment-based immigration 
covers persons of extraordinary ability who can actually 
petition for themselves, as well as employer-sponsored cases 
for managers, executive, professionals, skilled workers, and 
other essential workers.
    For professional-level people and above, they can come and 
begin work on a non-immigrant visa, such as an H-1 or an L-1 
visa. However, skilled workers and other essential workers 
don't have any similar non-immigrant visa, other than very 
short-term visas for seasonal work or agricultural work. It is 
a big problem in employment-based law for skilled workers and 
their employers, and for other essential workers.
    Labor certification has been substantially streamlined by 
the Labor Department. However, there are tens of thousands of 
cases that have been backlogged and awaiting adjudication for 
3, 4 and 5 years. The employment-based petition, which is the 
second stage of an employment-based case, the petition to the 
Immigration Service, is not adjudicated on a first-in/first-out 
basis, so that you will have some cases that are approved in 90 
days, some that have been sitting for 18 months unapproved.
    Now, in most cases those two workers tend to be sitting 
right next to each other, so that they are very aware of the 
disparity between their cases. This causes, of course, anxiety. 
It lowers morale. And they also have the age-out problem. If 
they have minor children, again, who are approaching 21 years 
old, they could lose their ability of their child to stay with 
the family when they turn 21. There, the adjustment is the same 
as for the family side; it is taking more than a year or two, 
and the same problems with the employment authorization 
document.
    We only see backlogs at present on the employment-based 
side in India and China; that is, persons born in India, 
persons born in China. And laws passed last year are beginning 
to alleviate that, at least temporarily, but this is somewhat 
of an illusion. If the Immigration Service were adjudicating 
cases at the rate that they are receiving them, our estimate is 
that they would run out of visas in all the employment-based 
categories and we would see backlogs for every single 
nationality in employment-based. So there is something waiting 
out there to happen.
    In the asylum area, I just want to say a few words. We do 
need to come to grips with the 1996 restrictions. The expedited 
removal provisions that provide for exclusion without a hearing 
and the mandatory detention requirements do allow for special 
treatment for asylum seekers if they are properly identified.
    Unfortunately, things being what they are, there have been 
numerous cases where individuals had to stay in detention for 
months, if not years, at a time before their case was approved 
and they are recognized as a bona fide refugee. You have to 
think that people were sent him to persecution, or worse, 
because of the failures of the expedited removal procedures.
    There is also a 1-year time limit on asylum applications, 
meaning that no matter how good your claim, if you don't come 
forward within a year of admission to make your asylum claim, 
you won't get protection in the United States. This is 
particularly troubling for people who have experienced torture, 
who have seen grisly scenes or murder happen to their family 
members. Frankly, a lot of refugees don't want to revisit those 
issues for a long time, so it takes a lot to come forward. 
Putting that arbitrary 1-year limit on it unfortunately again 
denies protection to people who really deserve it.
    Finally, we only have 10,000 slots for permanent residents 
for asylum seekers who have been granted asylum. There is a 
growing backlog now because the Immigration Service and the 
immigration judges are approving more than 5,000 cases a year. 
So every year, the backlog gets longer, the backlog gets 
longer.
    Again, these don't seem to be taken on a first-in/first-out 
basis either, so that persons granted asylum 4 or 5 years ago 
really don't know when they are going to get permanent 
residence. They have work authorizations, they can remain in 
the country lawfully, but they don't know when they can begin 
their citizenship track and they are subject to the other 
disabilities that persons who don't have lawful permanent 
residence yet are subject to.
    There are just a myriad of restrictions, catches, and 
disqualifications that are contained in the law. I am not going 
to detail them, although I have attached to my testimony a 
series of administrative actions for improvements that the 
agencies could actually go forward with without statutory 
action, and I would think that your Subcommittee would do well 
to encourage the agencies to do so.
    In concluding, I want to say that it appears that we are 
going to have forced on us a reexamination of the legal 
immigration limit, the levels, as well as the categories, 
because of the lengthy family quota backlogs, because 
employment-based immigration will soon run out of visas and 
start having backlogs, and finally because the H-1B cap which 
was increased last year will run out in 2003, only less than 3 
years from now.
    All those things put us on a course to review legal 
immigration. This will also be an opportunity to really look at 
how we can streamline and simplify the overall policy to really 
modernize it and make it worthy of America in the 21st century. 
The American Immigration Lawyers Association and others are 
eager to work with you and the Subcommittee to accomplish this 
and it will be very good work for us all.
    Thank you for the opportunity to testify and I am happy to 
answer any questions.
    [The prepared statement and an attachment of Mr. Leiden 
follow:]

Statement of Warren R. Leiden, Berry, Appleman & Leiden LLP, on behalf 
            of the American Immigration Lawyers Association

    Mr. Chairman and Distinguished Members of the Subcommittee:
    My name is Warren R. Leiden, and I am a partner in the San 
Francisco office of Berry, Appleman & Leiden LLP, a national law firm 
concentrating in corporate immigration law. I appear today as an 
observer and participant in the development of U.S. immigration policy 
for over twenty years and on behalf of the American Immigration Lawyers 
Association (AILA). AILA is the national bar association of over 6,000 
attorneys and law professors who represent the entire spectrum of 
applicants for immigration adjudications.
    I appreciate this opportunity to present our views on current U.S. 
immigration policy and I hope to provide some useful guidance on issues 
and concerns worthy of the committee's attention.
          Overview of U.S. Immigration Adjudications Programs
               values embodied in u.s. immigration policy
    U.S. immigration policy is based on a number of values that relate 
to the core social and economic principles on which our nation was 
founded. These values are complementary and interweave to create the 
rich fabric that is beneficial to all Americans. Among the most 
important values are----

<bullet> The unification of American families;
<bullet> Employment related immigration to keep America strong in a 
        global economy;
<bullet> Asylum protection for refugees fleeing persecution;
<bullet> Naturalization based on allegiance to the principles contained 
        in our Constitution and laws;
<bullet> Immigration policy that is implemented through a well-
        regulated system based on law, with fair, uniform, and 
        predictable requirements.

    Based on these values, U.S. immigration policy is built of three 
main pillars--family-sponsored immigration, employment-based 
immigration, and protection for refugees and asylum seekers. These 
three areas continue to have primary relevance in the new century, but 
all three have policy structures that are overly restricted and out of 
date. Despite the significant efforts of many good people in government 
service, each of these three areas has become overly complicated, 
substantially backlogged, and unnecessarily hampered by a patchwork of 
rigid limitations and sometimes-contradictory restrictions.
    The current situation calls out for change in the direction of 
modernizing our immigration policy, both in terms of numerical limits 
and in the direction of streamlining and simplifying, to the benefit of 
all Americans.
        family unification through family-sponsored immigration
    The goal of family unification and re-unification has long been a 
primary value in U.S. immigration policy. Respect for ``the family'' is 
deeply embedded in our national character, and families are recognized 
as our most important and primary social unit.
    Current law and policy gives special attention to the unification 
of the immediate relatives (spouses and minor children) of U.S. 
citizens. No fixed quota limits their numbers, and thus they are 
eligible for immediate immigration, although processing delays has made 
this much slower than ``immediate immigration'' might suggest.
    Family-sponsored immigration also includes the spouses and children 
of lawful permanent residents (``green card'' holders) and the adult 
children and siblings of U.S. citizens. However, each of these 
categories is subject to a preference quota that limits and delays 
immigration. All of the family-sponsored preference categories are 
back-logged at least two years, and some are back-logged ten years or 
more--these are not processing delays, this is the waiting time before 
processing can begin.
    Most family-sponsored immigration is accomplished in two steps: 
first the U.S. citizen or permanent resident files a petition to 
qualify the spouse or child, and then (when the quota number is 
reached) the spouse or child files an application with the INS or an 
overseas U.S. consulate to obtain immigrant status.
    U.S. citizen spouses and minor children are permitted to file the 
petition and application concurrently, since there is no wait for the 
quota, but the spouses and children of lawful permanent residents must 
wait for a quota number, with the current minimum wait of over four 
years. For the immediate families of lawful permanent residents this 
raises the terrible choice of whether to obey the immigration laws and 
separate their family for several years or keep their family intact in 
violation of the law. Adult children and siblings of U.S. citizens are 
also subject to quotas, which vary from two to well over ten years.
    Preference quotas for family immigration haven't been increased 
since 1990, although the demand for family unification has grown. 
Congress would do well to reconsider whether there should be a quota at 
all on the immediate family of lawful permanent residents and to 
consider generally right-sizing the family immigration quotas to better 
meet demand and promote unification.
    These preference category quotas are complicated by additional 
``per-country'' limits, which are based on the birthplace of the 
immigrant. A legacy of the ``national origin'' quotas that were 
abolished in 1965, the per-country limits extend some of the preference 
category quotas to twice as long a wait. While waiting for the quota to 
file their application for permanent residence, some minor child ``age-
out'' when they turn 21 years old, which shifts them to preference 
categories with much longer waiting periods. For instance, if a child 
of lawful permanent resident ages-out of the minor child category, the 
quota wait increases by almost three years.
    The age-out problem can also arise after the green card application 
has been filed. Approval of such adjustment of status applications can 
take two years or more due to processing delays, and if the minor child 
turns 21 before the application is approved, he or she loses out and 
has to get back in line in a different preference category. To its 
credit, the INS has instituted special handling procedures that catch 
many of these cases, but all it takes is one slip-up and the 
application becomes void. Furthermore, these special handling 
procedures take additional resources that can further delay the 
processing of other cases. A simple change in the law could eliminate 
this problem entirely, but the present situation is very unforgiving.
    Yet another problem arises after the ``green card'' application is 
filed. This is because the Employment Authorization Document (EAD) is 
granted for only one year, despite the fact that the process will take 
more than one or two years. Moreover, there is no credit for timely 
filing of the renewal, if the immigrant doesn't have the new EAD in 
hand, they can't lawfully work. As a result, pending green card 
applicants must file to renew their employment authorization almost 
every six to nine months. The solution here is simple--grant EADs to 
adjustment applicants for the duration of their adjudication or at 
least two years, and provide a 240 day grace period if the renewal is 
filed on time. This would take all the time pressure off the INS and 
the applicants, and would relieve some real hardship.
    Still another area needing review is the inability of immediate 
relatives to immigrate with their minor children. Although an adult 
U.S. citizen may sponsor his or her parents, their minor children (the 
siblings of the U.S. citizen) cannot immigrate with them, with the 
consequence that families may be separated for years. Such a situation 
suggests the need for a change in the law.
    Other initiatives central to family reunification also call for 
legislative action. A key to family unification is the permanent 
restoration of Section 245(i). Section 245(i), which has been extended 
to April 30, 2001, allows certain groups of eligible people to obtain 
their immigrant visas in the United States, so long as eligibility 
criteria are satisfied. A permanent restoration would allow immigrants 
on the brink of becoming permanent residents to remain in the U.S. 
while the INS processes their applications. The restoration of Section 
245(i) would allow families to stay together and provide revenue to the 
INS. Without 245(i), for example, people can face the possibility of up 
to a 10-year separation from their families due to the bars to reentry.
    These bars to reentry were enacted in 1996. People who have been 
unlawfully present in the U.S. for six months or longer are barred from 
reentering the U.S. for three years or ten years. Now with five years 
of actual experience with the bars in effect, we can conclude the bars 
have not fulfilled their intended purpose of serving as a deterrent to 
people overstaying their visas. Rather they have become simply an 
unforgiving punishment that does not fit the violation and whose main 
result is to divide and separate families, and force people 
underground. The law provides only very limited waivers and exceptions 
to the three and ten year bars, and no waiver for the permanent bar 
until after ten years. Repeal or substantial revision of these bars 
should take place in addition to a permanent restoration of Section 
245(i).
    Under the 1996 laws, new grounds of inadmissibility were created 
and waivers were severely restricted. Some of the permanent bars to 
admission allow for no review and no waiver, regardless of any 
mitigating facts. The general policy of creating broad grounds of 
inadmissibility with no opportunity for relief needs to be 
reconsidered. The agencies need the authority to exercise discretion to 
take into account actual circumstances including innocent intent, 
family ties in the United States, or other humanitarian considerations.
    The affidavit of support is another provision of the 1996 
immigration laws that needs to be reformed to promote family 
reunification. All family members sponsoring relatives for immigration 
must complete a legally binding affidavit of support. In many cases, 
overly strict interpretations of the requirements have needlessly 
limited the ability of families to be reunited. It is important to 
restore broad discretion in affidavit of support requirements to INS 
and consular officials. The INS and consulates need the discretion to 
consider broader evidence in meeting the threshold public charge 
minimum requirements, including job offers of applicants. In addition, 
the INS needs to reconsider the age and residency requirement in the 
affidavit of support. Furthermore, the present requirements place an 
unfair burden on a widow-beneficiary of a restored spousal petition 
after the death of the petitioner. In such a case, the adjustment or 
immigrant visa application could be denied because the petitioner is no 
longer able to sign the affidavit of support. The law should be changed 
so that in a case involving the death or mental incapacity of the 
petitioner, an alternative affiant may be considered.
                      employment-based immigration
    Employment-based immigration has historically served several goals. 
In the increasingly global economy, it helps keep America competitive 
by attracting some of the best and the brightest, and international 
personnel are essential to developing products that will appeal to 
other countries and societies. Employment-based immigration also 
permits the supplementation of the U.S. workforce at many levels, with 
protections for the U.S. labor market, its opportunities, wages, and 
working conditions.
    Employment-based immigration is comprised of two types--limited 
nonimmigrant stays and employment-based permanent residence.
                     employment-based nonimmigrants
    For professionals, multinational managers and executives, and 
certain other occupations, there are a number of nonimmigrant 
categories that permit lawful stays and employment in the U.S. The H-1B 
program for ``specialty occupations" is the most widely used and best 
known. The subject of legislation in 1998 and 2000, the H-1B program 
has the agencies struggling to keep it workable for employers in the 
real world.
    The H-1B process begins with the submission of a Labor Condition 
Attestation (LCA) to the Labor Department, by which the employer 
promises to meet certain wage, working conditions, employment, and 
notice standards. The Labor Department is required by statute to 
``approve'' the LCA within seven days. The employer then files a 
petition with the INS, which cannot be approved without the approved 
LCA. For employees new to the H-1B program, employment cannot begin 
until the petition is approved by INS.
    Unfortunately, in attempting to comply with the new laws, the Labor 
Department doubled the length of the LCA form in January, and has had 
great difficulty making its automated receipt and approval process 
work. The regular time for routine LCA approval grew to three to four 
weeks in February, but for some weeks, up to eighty percent of the LCAs 
had to be re-filed due to government operations problems. Add to this 
the INS processing time of two to three months, and the entire H-1B 
processing time grows to three to four months. Needless to say, 
employers have great difficulty in keeping up with their business needs 
when new personnel cannot begin work for three or four months.
    The H-1B program was also the subject of massive and controversial 
``interim final'' regulations that were published in December 2000 and 
effective on January 19, 2001. Employers were dismayed that some of the 
most difficult new requirements for ``non-dependent'' employers were 
never published as proposed regulations for public comment before 
becoming effective, or appeared to far exceed the spirit and the letter 
of the statutory law. Equally troubling was the imposition of 
complicated new requirements that will require substantial changes in 
the way that business is done and records are kept, by large national 
corporations and small businesses alike, without any education period 
or guidance from the Labor Department to help employers come into 
compliance.
    Similar problems with Labor Department H-1B regulations 
necessitated corrective legislation in 1991 and a federal court 
injunction in 1997. While many had hoped that these extreme remedies 
would not be necessary after the 2000 legislation, it does not appear 
that the lessons of the past have yet been learned. The public was 
granted an extension of the comment period to April 19, 2001, and it is 
hoped that the Department will now take measures that will obviate the 
need for litigation or corrective legislation.
    The 2000 Act that increased H-1B nonimmigrant numbers will expire 
in 2003, in the middle of the next Congress. Unless extended, the 
expiration of 2000 Act will allow the H-1B cap to revert to its 1990 
level, which is less than half of current usage. Thus, it will not be 
long before the committee will need to address a continuation of the H-
1B program that was refined in 2000.
    A common complaint of nonimmigrants and their employers is that 
nonimmigrant spouses are not granted work authorization as an incidence 
of their dependent visa. This is particularly true for intra-company 
transferees, many of whom have spouses who were employed prior to their 
transfer to the U.S., but who now cannot accept any type of employment 
unless they separately qualify for a principal nonimmigrant work visa. 
In the modern era, in which both spouses of a family often expect to 
work, this is a policy that needs to be rectified for each relevant 
nonimmigrant category.
    Employees who qualify can stay lawfully in the U.S. and work as 
nonimmigrants while completing the employment-based permanent residence 
(``green card'') process. At the professional and managerial level, 
almost all beneficiaries (employees) are in fact lawfully employed as 
nonimmigrants by the petitioning employer during the green card 
process, because they can qualify for H, L, E, or other nonimmigrant 
visas. It is necessary to employ the nonimmigrant visas because the 
permanent residence process can take several years to accomplish. 
Unfortunately, there is no lawful nonimmigrant work status for skilled 
or other essential workers (other than for seasonal work such as at 
resorts), and thus they do not have a legitimate way of being employed 
in the U.S. during the lengthy green card process. This is a serious 
problem that undermines the integrity of the employment-based immigrant 
program and deserves close attention from the committee.
          employment-based immigration for permanent residence
    Current immigration laws provide for several categories of 
employment-based immigrants, including persons of ``extraordinary 
ability'' and those petitioned by a U.S. employer for employment as a 
researcher, manager, executive, professional, skilled or other 
essential worker.
    In most cases, the employment-based immigrant process has three 
steps: labor certification, immigrant petition, and adjustment of 
status application (or immigrant visa application to a U.S. consulate 
overseas).
    Labor certification is the Department of Labor's approval of the 
employer's labor market test as a condition to petitioning for an 
immigrant employee. The employer applies by precisely reporting the 
job, wages offered, job requirements, recruitment efforts, and the 
results of recruitment. Since the introduction of streamlined 
procedures in 1996, the labor certification program has seen tremendous 
improvements; petitions can take as little as two or three months for 
``historically certifiable'' occupations. On the other hand, 
applications that are not eligible for the streamlined procedures 
remain unapproved for two years or more.
    Critics of employment-based immigration deride the labor 
certification process, although they suggest no workable alternative. 
Supporters of the program would prefer a system that reflected 
employers' real world practices rather than the artificial, after-the-
fact labor market test that is now required. In overhauling the labor 
certification program, it is possible that an attestation process could 
be the path to a more workable and effective approach.
    Upon the approval of the labor certification, the employer files 
the employment-based immigrant petition with the INS. Although 
virtually pro forma in many cases, the INS has an uneven record on 
petition approvals. Among similar petitions, some are approved in two 
or three months, some remain unadjudicated 18 months later or more. The 
public has a very difficult time understanding these anomalies, and 
employers have urged the INS to adopt a ``first in, first out'' 
approach to processing immigrant petitions.
    Once the immigrant petition is approved, the employee may file the 
adjustment application, assuming that the quota eligibility is reached. 
Adjudication of adjustment applications, the end of the green card 
process, has been a serious problem for the INS. After a virtual freeze 
on adjustment adjudications in 1999 and 2000, applications are once 
again being adjudicated. However, waits of two years for the decision 
are not uncommon.
    Due to the low adjudication levels at INS, the number of 
employment-based immigrant visas issued has been far below the current 
quota levels set in 1990. At the same time, the immigration of persons 
born in China and India was delayed by up to two or three years due to 
the per-country limits, despite the fact that tens of thousands of 
employment-based visas were going unused. This particular problem was 
addressed in the 2000 Act, and we are already beginning to see some 
relief for China and India born applicants.
    The availability of employment-based immigrant visas is not 
expected to last. The 1990 immigrant visa levels simply don't match the 
levels of employment-based nonimmigrants and their dependents. Put 
simply, if INS were approving employment-based green cards at the rate 
that applications are being filed, we would have backlogs for all 
nationalities, not just India and China. Once the INS picks up the pace 
of adjudications, we will run out of employment-based immigrant 
numbers. This inevitability will need to be addressed in the near 
future, perhaps in this Congress, if the INS is able to improve its 
adjudication volume.
    When the principal immigrant files the adjustment of status 
application, it is normally accompanied by concurrent applications for 
the EAD and travel permission (advance parole). The INS is required by 
regulation to provide the EAD within 90 days, and it is usually made 
available at just that point. Unfortunately, as with family-sponsored 
cases, the EAD is only granted for one year, although the adjustment 
process almost always takes longer. And since there is no grace period 
while INS adjudicates the renewal, applicants are obligated to file the 
renewal almost six months before the expiration. As a result, 
applicants must file for renewal of their EAD only months after the 
first EAD is approved. As noted above, this situation could be remedied 
easily by changing the EAD duration or allowing for a grace period.
                     diversity visa lottery program
    Our immigration law also provides for a visa lottery that allots 
55,000 visas per year to nationals of countries with low ``sending'' 
levels (of immigrants to the U.S.) that are located in ``low sending'' 
regions. The program is promoted to encourage diversity in legal 
immigration.
                        asylum from persecution
    America has long stood as a beacon and haven to refugees seeking 
protection from persecution in other countries. Americans have 
respected this principle since the earliest days of our nation, and the 
obligation to protect refugees has been codified in international law 
through treaties and protocols. Our current asylum laws were enacted in 
1980, and substantially restricted in 1996.
    Generally, persons fleeing persecution apply for asylum at a port 
of entry upon arrival or after they have been in the U.S. for a period 
of time. One year after a grant of asylum by the INS or an Immigration 
Judge, the individual is permitted to apply for adjustment to permanent 
residence. Numerous studies have examined and confirmed the difficulty 
that many refugees have coming forward to speak about their 
persecution, particularly if they have been subject to torture or 
witnessed grisly acts or killings.
    When Congress enacted the provisions for ``expedited removal'' 
(exclusion without hearing) at the ports of entry and the requirement 
of mandatory detention, there was an attempt to permit asylum seekers 
to avoid expedited removal and detention. Regrettably, the well-
intentioned protection procedures have not been adequate to prevent the 
incarceration of bona fide refugees who, sometimes after many months on 
incarceration, are finally recognized as worthy of asylum protection. 
For individuals who make it into the U.S. and are not incarcerated, 
there remains the new provision that requires that the asylum 
application must be filed within one year of entry, or it will not be 
entertained, regardless of the merits of the asylum claim.
    The 1996 law also lowered the number of asylum grantees who could 
be granted permanent residence to 5000 persons per year. Since 
approvals of asylum applications are much higher than this, the backlog 
of asylees seeking permanent residence grows larger every year. Without 
permanent residence, these refugees have not yet really been accepted 
in American society, and they are not permitted to begin acquiring the 
required years of residence to qualify for naturalization.
    The draconian provisions enacted in 1996 were a reflection of 
certain perceptions of the time, but experience has shown that these 
restrictions have caused more hardship to refugees and done more harm 
to our national principles than the perceived problems they were 
supposed to address. Now five years later, the committee would do well 
to review the effectiveness and the harm caused by these provisions and 
make recommendations for their amendment or elimination.
                             naturalization
    Another value long held by Americans is that newcomers who 
subscribe to our principles and the U.S. Constitution should be able to 
become citizens without great difficulty. This approach is in sharp 
contrast to many other countries that look only to the parents to 
determine citizenship (``blood'') or that have very lengthy, difficult 
and subjective naturalization procedures.
    A major focus of the INS in the past decade, naturalization is very 
popular among permanent residents and the numbers of naturalized 
citizens has increased significantly. These increased numbers are in 
spite of the fact that naturalization is ``hard to get started'' 
(according to many would-be applicants) and takes a significant amount 
of time to complete.
      agencies adjudicating immigration petitions and applications
    In its ideal form, the U.S. immigration process is a system of laws 
and objective requirements, in contrast to so many countries where 
immigration procedures are unwritten and qualifying criteria are 
uncertain or largely subjective.
    Unfortunately, the actual practice can lag far behind these 
important ideals. Although great strides have been made in some areas, 
the responsible government agencies have not yet achieved the 
uniformity, predictability, or timeliness that the public expects and 
deserves in the adjudication of applications and petitions. The 
adjudication of immigration benefits is ultimately a ``service" 
enterprise, but not all levels of agency management understand this. 
All too often, the outcome of an the application hinges on the 
particular region it is filed in and the particular examiner who 
processes the case. This is particularly noticeable to national 
employers who petition for similar cases around the country and are 
forced daily to comply with ``special'' rules for each jurisdiction, 
although nation-wide law is being applied. Similarly, employers and 
their attorneys are too often dismayed by approvals and denials of 
almost identical petitions without an explanation.
    Last year's legislation set out a number of guidelines for 
processing times that, if followed, would bring great improvements. In 
addition, the legislation authorized appropriations to supplement the 
funds already received from application fees of the examinations fee 
account. As the committee knows, immigration enforcement activities are 
supported by appropriations, while all INS adjudications are funded 
solely by user fees. Some appropriations for the adjudications 
function, if targeted and properly monitored, could provide the 
resources to the INS to develop the infrastructure needed to make 
substantial productivity gains in the future.
    It is also likely that the committee will address the separation of 
the enforcement and adjudication functions of the INS. While all sides 
appear to agree that the functions need to be separated, it is 
important to recognize that the separation functions will need 
coordination and need to be accountable to a high level, single office 
with the authority to make decisions that are binding on both 
functions. While considering INS reorganization, Congress needs to 
ensure that adequate congressional appropriations are made available to 
adjudications to improve customer service and to offset the costs of 
those adjudications for which no fee is charged or from which funds are 
diverted.
    There are several different proposals on this subject, and the 
language of the bill introduced last Congress in the Senate by the 
former chairman and ranking member of the subcommittee would make a 
good starting point for consideration.
    Attached at the end is a brief list of recommended INS 
administration actions that would accomplish significant improvements 
for family and business petitioners and their immigrant beneficiaries, 
that could take place prior to any reorganization and that, in fact, 
would help ensure that any reorganization of the INS is successful.
                               conclusion
    U.S. immigration policy based admissions on three main pillars: 
family unification, employment, and protection of refugees. Our 
policies and laws in all three areas have become out of date as to 
numbers and purposes, and overly restricted by patchwork of accumulated 
amendments and rigid rules. The fact that all three areas are 
needlessly complicated and substantially backlogged points clearly to 
the need for streamlining and simplification to produce modern policies 
and procedures that will work long into the 21st Century.
    Interested members of the public and their organizations are eager 
to work with the committee to develop up-to-date and smarter 
immigration policy and practices. Through its oversight responsibility, 
the committee needs to help guide the agencies to succeed in providing 
timely, predictable, affordable, and accurate adjudications. Through 
legislation, the committee will need to review our out-of-date quota 
limits for immigrant and nonimmigrant categories and raise them to meet 
America's interests in the 21st Century. In addition, the committee 
will need to look to new solutions and new categories to provide for 
lawful regulation of entry and work authorization for those our country 
needs.
    Thank you again for this opportunity to testify on this important 
subject.

                                           Warren R. Leiden
    Attachment
                 Recommended INS Administrative Actions
    The following actions can be taken by INS without statutory change, 
and would provide significant improvements to both efficiency for the 
agency and outcomes for the public.
<bullet> Re-institute concurrent filings of employment-based immigrant 
        petitions and adjustments of status. Prior to the advent of the 
        INS Service Centers, all adjustment of status applications and 
        immigrant visas petitions were filed at local district offices. 
        When INS instituted the Service Centers, the agency initially 
        transferred all processing of immigrant visa petitions to the 
        service centers, but continued to require that adjustment of 
        status applications be filed at the local offices. This 
        requirement meant that employment-based immigrants had to wait 
        until the Service Center had approved their immigrant visa 
        petition until they could file for adjustment of status at the 
        local office, adding many months to the process, and delaying 
        the time when they could file for employment authorization. For 
        individuals whose nonimmigrant status was expiring, or children 
        of applicants who were approaching 21, this delay often meant 
        losing eligibility for adjustment and work authorization. Now 
        that the INS has moved adjustment of status processing to the 
        Service Centers as well, there is no need to continue to 
        require separate filing of the petition and adjustment 
        applications. Concurrent filing would eliminate the hardship 
        caused to immigrants and their families from the delays and 
        backlogs in processing immigrant visa petitions, preserve their 
        work authorization and the eligibility of dependent children 
        who might otherwise ``age out.''
<bullet> Lengthen the validity period of Employment Authorization 
        Documents and combine them with Advance Parole. Current INS 
        regulations allow applicants for adjustment of status to apply 
        for work authorization. Regulations also prohibit adjustment 
        applicants from traveling abroad without first obtaining 
        permission from the INS (called Advance Parole). The vast 
        majority of adjustment applicants apply for both of these 
        documents concurrently with their adjustment applications. INS 
        policy is to issue work authorization and advance parole only 
        for one year. If the adjustment applications take longer than 
        one year to process (which is the normal case), the applicant 
        must reapply for both documents and pay additional fees. These 
        applications further aggravate the INS workload, and are a 
        nuisance for applicants. INS should provide work authorization 
        and advance parole through the anticipated duration of the 
        adjustment processing, and should combine these documents into 
        one to minimize processing and backlog.
<bullet> Allow individuals to travel outside the U.S. while extension 
        or changes of status requests are pending. Current INS policy 
        and regulations are extremely ambiguous with regard to the 
        status of applications for extension or change of status if the 
        individual must travel abroad while the case is pending. In 
        some circumstances the INS considers the petition ``abandoned'' 
        and in others will process the case to conclusion, but require 
        the individual to wait outside of the U.S. until the approval 
        is issued, or file an additional application after entry to 
        have the decision ``apply'' in their case. To avoid 
        unnecessarily duplicative filings upon return to the U.S. of 
        these individuals, INS should determine that such cases may 
        continue while the beneficiary is temporarily abroad, and 
        should state categorically that any decision reached after the 
        return of the individual to change or extend their status is 
        binding, regardless of any intervening departure.
<bullet> Reduce the proliferation of resource-intensive Requests for 
        Evidence (RFEs). INS adjudicators are given wide latitude in 
        interpreting the eligibility standards for immigrant and 
        nonimmigrant visa categories, resulting in an increasing number 
        of requests for evidence. INS customers receive wildly 
        inconsistent adjudications and RFEs requesting documentation 
        unrelated to any known standards in statute or regulation. In 
        addition, each of these RFEs requires the examiner to take 
        extra time to articulate the request, a supervisor's review, 
        and resources to print and mail. It also requires additional 
        time and resources to process and review the responses from the 
        applicants/petitioners, a waste of valuable resources. By 
        developing and publicizing clearly articulated standards for 
        eligibility, the Service would improve consistency and reduce 
        its workload.
<bullet> Enforce a policy of not revisiting decisions already made in 
        the absence of fraud or changed law or facts. Currently, INS 
        adjudicators are issuing RFEs and denials on such matters as 
        extensions of status where there has been no change in the 
        previously approved circumstances, wasting INS and public 
        resources.
<bullet> Provide for the issuance of EADs to fiancees with approval of 
        the fiancee petition. INS regulations provide that K-1 fiancees 
        of U.S. citizens who enter the U.S. to get married are 
        authorized to work incident to their status. However, the 
        Service requires these individuals to file a separate 
        application for an Employment Authorization Document after they 
        arrive, and wait up to 90 days for issuance of the card (K-1 
        status requires the couple to be married within 90 days of 
        entry). To avoid needless duplication of adjudications, the INS 
        should automatically issue an employment authorization document 
        with the petition approval, so the individual may commence work 
        immediately upon entry.
<bullet> Enable foreign student advisors to authorize optional 
        practical training. Foreign students in F-1 status are eligible 
        for two primary types of ``practical training'' work 
        authorization: curricular practical training (which involves an 
        established training program that is part of the curriculum) 
        and optional practical training (which is not directly part of 
        the curriculum and which can be undertaken during studies or 
        for one year after graduation). Currently, the foreign student 
        advisor at the institution may authorize curricular practical 
        training by endorsing the student's documents. However, the 
        student must apply to INS for an Employment Authorization 
        Document to engage in optional practical training. Enabling 
        foreign student advisors to authorize optional practical 
        training would avoid the needless processing of routinely 
        approved applications.
<bullet> Develop standardized and accurate processing time reports and 
        make them available on the web. Currently, each of the four INS 
        Service Centers has its own format for reporting its processing 
        times for different petitions and applications, and this 
        information is not generally available to the public on the INS 
        web site. In addition, the processing times do not reflect the 
        actual time between the date the Center receives a case and the 
        date the applicant/petitioner receives a decision. The Centers 
        do not report their ``front log,'' the delay between the date a 
        case is physically received and the date it is entered into 
        their computer database, nor the delays between the date a 
        decision is made and the date that decision is actually mailed. 
        In addition, the Centers do not report the oldest date of any 
        cases pending, rather the average date that the ``majority'' of 
        cases pending were filed.

    Chairman Brownback. Thank you, Mr. Leiden, and I apologize 
for mispronouncing your name at the outset. I look forward to 
some questions and discussion, and thank you for sharing your 
expertise. You have been involved in this field for a long 
time. As I dig into it, I notice the complexity of it is great, 
so I appreciate your simplifying some of it for us.
    Mr. Moore, it is delightful to have you here in the 
Committee room ready to testify, and we look forward to hearing 
your comments.

  STATEMENT OF STEPHEN MOORE, SENIOR FELLOW, CATO INSTITUTE, 
                        WASHINGTON, D.C.

    Mr. Moore. Thank you, Senator Brownback. It is a pleasure 
and a privilege to testify on this important subject. I am an 
economist and I thought I would talk a little bit about the 
economic consequences of immigration.
    I apologize for being late. My immigrant cab driver got 
lost. I am only joking, actually, but I did have an immigrant 
cab driver.
    Senator Durbin, I am a fellow Chicagoan, so I know what you 
speak of when you talk about the immigrant neighborhoods in 
Chicago. It is one of the real rich traditions of that great 
city.
    I think that what is going on in this issue is that what 
has really emerged over the last 15 or 20 years is a consensus 
among economists on immigration that you don't see on most 
other issues that you all deal with everyday. On budget and tax 
issues, there is so much contradictory evidence from economists 
about what is good for our economy, and on labor issues, and so 
on.
    I don't think that is so on immigration. I think today we 
really do have a pretty solid consensus now that immigrants 
are, on balance, good for the economy. Now, that is not to say 
there aren't some costs associated with immigration, but I 
think that if you look at the studies by groups ranging from 
the Cato Institute, to the Urban Institute, to Hoover, to the 
National Research Council, all of these groups are coming out 
with the same kinds of direction, which is that the impact is 
positive, not negative. That is the big picture.
    Now, you asked, Senator, since this is your first hearing, 
for just a bit of a scene-setting, and I thought I would just 
spend my few minutes doing that. And if I may, I would just ask 
if my written testimony could be submitted for the record and 
then I thought I would just talk about some of the highlights.
    Chairman Brownback. It will be in the record.
    Mr. Moore. What I thought would be most helpful, because I 
really believe a picture is worth a thousand words, is if you 
have a copy of my testimony, I thought I would just go through 
some of the charts that we have at the back of the testimony. 
There are 9 or 10 charts, and if you have that, I thought I 
would just quickly go through some of the demographic and 
economic impact data.
    Chart 1 shows you basically something that is just the 
total number of immigrants that come to this country throughout 
history, starting in the early 1800's. As this chart shows, we 
are now in what I call the third great wave of immigration to 
this country. The first great wave was in the middle of the 
19th century. The second great wave was the Ellis Island 
immigrants who came around 1900, and as you can see, there is a 
big spike in that period between about 1900 and 1920.
    Since around the mid-1970's, we have been experiencing a 
third great wave, and the number of immigrants who are coming 
in today in absolute numbers is roughly the same numbers that 
came in around 1900. So this is a fairly high number in terms 
of absolute numbers.
    If you try to look at both legal and illegal immigration 
together, the estimates are that we let about 1 million 
foreign-born into the country per year. That is the absolute 
number, but if you look at Graph 2, what you will see is that 
really the best way of measuring the impact of immigration on 
our society and our economy is how many immigrants are we 
letting in relative to how many people are already in the 
country.
    There, you can see that actually we are fairly low with 
respect to immigration today. We let about 4 immigrants in per 
year, per 1,000 native residents of the country. That is 
substantially lower than many previous periods in history, 
although it is true that since around 1950 that number has been 
rising to some extent.
    Finally, on Figure 3, this just shows you what percentage 
of Americans here today are foreign-born, how much of a country 
of immigrants are we today. This number has also been rising 
since about 1970. We are now, I think, according to the 2000 
Census data, at about 9 to 10 percent of Americans now being 
foreign-born. That is substantially higher than, for example, 
in 1970, but the historical average is about 10 to 11 percent. 
So we are actually slightly lower a Nation of foreign-born 
today than we have been throughout our history.
    So the point here is just that I don't think the numbers 
are out of control. They are higher than they have been in some 
of the past decades, but in terms of an historical perspective, 
we are not really very high with respect to our numbers.
    Now, if you look at the last 20 years, as I said before, 
the numbers have been rising. We have allowed somewhere in the 
neighborhood of 15 million immigrants into the United States 
over the last 20 years, and that is a fairly large number of 
people.
    The interesting thing is that that period of fairly high 
levels of immigration have also corresponded with a period of 
fairly high economic prosperity. These have been prosperous 
times, except for the last 3 or 4 months, for Americans. In 
fact, if you look at the statistics of what people thought 
would be the impact of immigration, people were concerned, for 
example, that if we let in a lot of immigrants, it would 
increase poverty, it would increase unemployment of natives, 
and so on.
    The next series of chart just show that actually over this 
period, for example, poverty rates especially for black 
Americans have fallen, even though immigration has been 
relatively high. If you look at Figures 5 and 6, it shows that 
real median family income has continued to rise even as 
immigration has been relatively high. Interestingly enough, a 
lot of the immigrant opponents argue that immigration is bad 
for black Americans. But the truth is that this period has 
actually been a period of relative income growth for African-
Americans. The unemployment rate in this era has fallen 
dramatically, even though we have had a number of immigrants 
come in. In fact, for black Americans the unemployment rate has 
fallen by half in the last 20 years.
    If you look at Figure 8, this is one of the most important 
points of our study, and that is that the impact of immigration 
on taxes and public services is one of the most important 
economic consequences of immigration.
    What we find is that immigrants actually have a fairly 
positive impact on the Federal deficit situation, and the 
reason is that immigrants tend to come to the United States 
when they are young, and that means that we get the benefit of 
their working years. Oftentimes, average immigrants come to the 
United States between the ages of 18 and 30, and that means 
that for their working lives we get the benefit of their labor, 
whereas in many cases they were educated by the sending 
country. That is a huge net positive impact of immigration.
    The other part of this is that very few immigrants come to 
the United States when they are over the age of 65, and that 
means when you look at the major Federal program in the 
country, which of course is Social Security, you get a real 
large one-generation net benefit from immigrants, because what 
happens is the immigrants come in at, say, age 25 and they work 
for 40 years, paying payroll taxes during those years.
    Now, of course, when they retire they will get Social 
Security, but their children will be paying in, paying for 
their benefits. So you get this kind of one-generation net 
benefit from immigrants, and it is an important fiscal benefit.
    In fact, just skipping ahead, because I see my time is up 
and I will close this out, but if you look at Table 11, what it 
shows is that only about 3 percent of immigrants who come to 
the United States are over the age of 65. That means very few 
are collecting Social Security. By the way, even those who do 
arrive over the age of 65 are not eligible for Social Security 
because they didn't pay into the program.
    But if you look at Table 12--and this is kind of the crux 
of the matter--if you look at the Social Security actuary 
numbers, what they show is that immigrants are an incredibly 
important benefit to the financial solvency of both the Social 
Security and Medicare systems. We just basically used the 
Social Security Administration actuary numbers to calculate 
what that net benefit is to Americans, and over the next 50 
years the net benefit of allowing about 800,000 to 1 million 
immigrants per year, which is sort of the current policy, will 
lead to a net benefit of about $1 trillion to $1.5 trillion to 
the Social Security system.
    So I think I will just conclude this by saying I think the 
evidence is fairly solid that immigrants don't cost native 
Americans. They benefit our economy, and I would hope that we 
stick with the policy that we have right now because we have 
kind of inadvertently stumbled upon an immigration policy that 
works pretty well for the immigrants and native-born Americans 
as well.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Moore follows:]

       Stephen Moore, Senior Fellow in Economics, Cato Institute

    Thank you Senator Brownback for the privilege of being asked to 
testify before your Committee on the impact of immigrants on the U.S. 
economy.
    I am very pleased that despite the partisan battles over economic 
issues that the Senate finds itself embroiled in on an almost daily 
basis, a consensus seems to have emerged in the Congress that 
immigrants are--as they have been throughout most of our history--
beneficial to our economy and assets to our society in other ways as 
well. This favorable attitude regarding immigration on Capitol Hill is 
evidenced by the pro-immigrant legislation that has passed the House 
and Senate in recent years and the wise rejection of many anti-
immigration measures.
    This pro-immigration environment that has emerged on Capitol Hill 
reflects the growing consensus within the economics profession that 
immigrants are on balance economic assets, not liabilities. To be sure, 
economists still argue about the size of the benefit of immigration to 
the U.S. economy, but almost all of the best research indicates that 
the direction of the impact is on balance positive. There is also 
lively debate about whether some groups of Americans--the lowest 
skilled Americans, blacks, earlier arriving immigrants, for example--
are adversely impacted by immigration. But even here, I am pleased to 
report that more and more of the research findings seems to suggest 
that the extent to which low income Americans are hurt by the presence 
of immigrants has been exaggerated.
    Let us start with the big picture. The past 20 years has been a 
period of fairly high levels of immigration, particularly in absolute 
numbers. See Figure 1. Over the past 20 years, the United States has 
legally admitted roughly 15 million immigrants and refugees. We now 
admit almost 4 new immigrants per year for every 1000 Americans, which 
is higher than in the past 50 years, but about half the historical 
average. See Figure 2. Still, the percentage of Americans that are 
foreign born has risen from about 6% in the 1970s to almost 10% today. 
See Figure 3.
    At earlier times in our nation's history, as many as 15% of 
Americans were foreign born. So although our current levels of 
immigration are by no means unprecedented, it is true, nonetheless, 
that for the past 25 years, the U.S. has been quite generous in 
immigrant admissions and that we are now in the midst of a new great 
wave of immigration to these shores not experienced since the great 
wave of Europeans who arrived through Ellis Island at the turn of the 
last century.
    If immigrants were economically harmful, we would certainly expect 
to see visible signs of the damage to the economy by now. In fact, 20 
years ago, many advocates of lower level of immigration, or even in 
some extreme cases, a moratorium on immigration, argued that continued 
high levels of immigration would lead to such economic problems as: (1) 
increased unemployment for native born workers; (2) higher poverty 
rates of native born Americans; (3) lower incomes for American workers; 
(4) increased economic problems for minority workers; (5) a huge surge 
in welfare dependency; and (6) lower overall rates of economic growth.
    But it didn't happen. None of these claims have been evidenced in 
the U.S economy.
    Now it is undeniable that when immigrants come to the United 
States, the labor force competition may very well cause some American 
born workers to lose their jobs (in the short term) through 
displacement; they may cause some wage rates to fall or not rise as 
fast as they might have otherwise, and some immigrants do take 
advantage of the welfare system. The relevant policy question is 
whether we have observed these impacts on an economy-wide level. And 
here there is little debate. High levels of immigration have 
corresponded with improvement in each of these areas, not with the 
problems getting worse. For example:
<bullet> UNEMPLOYMENT--In the period 1978-82 the U.S. unemployment rate 
        was between 6 and 8%. Today, the U.S. unemployment rate is 
        between 4 and 5%. The U.S. economy has shown a remarkable 
        ability to absorb new workers into the economy--both natives 
        and immigrants--without causing job losses. Between 1980 and 
        2000 the U.S. became a job creation machine, with some 35 
        million more Americans employed today than 20 years ago. The 
        U.S. has created more new jobs in the past 20 years than all of 
        Japan and Europe combined since 1980. In fact, despite the fact 
        that the U.S. takes in nearly as many immigrants in a year as 
        does all of Japan and Europe combined, it is the U.S.--the 
        nation of immigrants--that now has the lowest unemployment rate 
        in the industrialized world.
<bullet> POVERTY--The poverty rate for Americans has fallen over the 
        past 20 years for all races. The latest poverty rate statistics 
        indicate that poverty is lower than at anytime since the mid 
        1970s. See Figure 4. A recent study by the Center of 
        Immigration Studies reports that since 1980 the rate of poverty 
        among immigrants has risen. Of course, if the overall level of 
        poverty has fallen during this period, it means that the 
        reduction in poverty for native born Americans has been all the 
        more impressive. In sum, there is no evidence that immigrants 
        increase poverty among natives, in fact the evidence suggests 
        the opposite effect.
<bullet> WELFARE USE--There is no evidence that immigration has led to 
        higher rates of welfare dependency. Since 1993, welfare 
        caseloads have fallen by an astonishing 50% across the nation. 
        In fact, welfare usage of the foreign born has fallen faster 
        than for native-born Americans.
<bullet> INCOMES--Median family income in the U.S. has risen over the 
        period 1981-1998 from $39,000 to $45,800 or by roughly 16 
        percent, according to recent Census Bureau data. With inflation 
        properly measured, median family income has risen since 1981 by 
        closer to 25 percent. Again, wage suppression does not appear 
        to have occurred in this period of high immigration. See Figure 
        5.
<bullet> IMPACT ON MINORITIES--There is still in America far too wide 
        an income gap between the races. But over the past 20 years of 
        high levels of immigration, the income gap has actually shrunk, 
        not widened. See Figure 6. The income gap between blacks and 
        white and between men and women has narrowed to its lowest 
        level in recorded history. From 1981 to from 60 percent of 69 
        percent--the highest ever recorded. For women, the gap narrowed 
        from 89 percent to 94 percent. The black unemployment rate has 
        fallen much faster then the white unemployment rate, as has the 
        black poverty rate. See Figure 7. In sum, we have had record 
        immigration and we have had record economic improvements for 
        blacks.
    What can we conclude about the impact of immigration on the U.S. 
economy since 1980? Over the past 20 years the U.S.

    What can we conclude about the impact of immigration on the U.S. 
economy since 1980? Over the past 20 years the U.S. economy has 
experienced a $10 to $15 trillion increase in net wealth, according the 
Federal Reserve Board data, the GDP has grown by nearly 80 percent 
(after inflation), and the inflation rate has fallen to nearly zero. 
The National Bureau of Economic Research recently described the past 18 
years as the longest and strongest period of sustained prosperity in 
the U.S. in this century. If immigrants are somehow a ``cost'' to the 
U.S. economy, that cost has been virtually invisible. The experience of 
the past two decades puts a huge burden on the shoulders of those who 
contend that immigrants are economically burdensome.
    But I believe a stronger case can be made. Immigrants have 
contributed directly to America's unprecedented economic expansion of 
the past two decades. Moreover, I believe the demographic evidence 
suggests that it will be in America's self-interest to continue 
admitting immigrants over at least the next 20 years.
    In 1998 I completed a study jointly published by the Cato Institute 
on the economic and fiscal impact of immigrants to the United States. 
The study was entitled ``A Fiscal Portrait of the Newest Americans.'' I 
would like to insert the study in the record. But allow me to now 
relate to you the major conclusions based on our own research findings 
and corroborated by several dozen prestigious economic studies 
published in major economic journals.
(1) Immigrants and their children increase economic growth. In the most 
        comprehensive study ever conducted on immigration, the National 
        Research Council of the National Academy of Sciences found that 
        immigrants inflate the incomes of U.S.-born workers by at least 
        $10 billion each year. This estimate is highly conservative 
        because it does not include the impact of immigrant-owned 
        businesses or the impact of high-skilled immigrants on overall 
        productivity. Still, the NRC estimates that the typical 
        immigrant and his or her children pay an estimated $80,000 more 
        in taxes that they will receive in local, state and federal 
        benefits over their lifetimes.
(2) Immigrants pay their own way when it comes to services used and 
        taxes paid. Immigrants use many government services--
        particularly at the state and local levels--but they are also 
        pay a lot in taxes. Conservatively estimated, in 1998 immigrant 
        households paid an estimated $133 billion in direct taxes to 
        federal, state and local governments. Adding the tax receipts 
        paid by immigrant businesses brings the total annual tax 
        contributions of immigrants to about $162 billion for 1998. In 
        any given year, immigrants may use more in services than they 
        pay in taxes, but over their lifetimes, immigrants are a fiscal 
        bargain to native taxpayers. As their earnings rise over time, 
        immigrant taxes exceed the benefits received. See Figure 8.
    (3) Not all immigrants make the same tax payments or impose the 
same costs. The best predictors of immigrant success and thus their tax 
payments are their skill levels, education attainment, and ability to 
speak English. In general, low-skilled, low-educated immigrants and 
non-English speaking immigrants use more government services and pay 
less in taxes than those with high skills.
    (4) Immigrants have a rapid rate of economic assimilation after 
they arrive in the U.S. As noted above, one of the most important 
economic characteristics of immigrants is that their earnings rise over 
time in the U.S. Hence, during their first years after arrival in the 
U.S. earnings are low and immigrants typically are net drains on the 
public coffers. But over time--usually after 10-15 years in the U.S--
they turn into net contributors. This economic assimilation pattern 
varies by ethnicity and country of origin, but is still evident today 
as it was 30 years ago when researchers first began to study the rate 
of economic success by immigrants over time. We also this economic 
assimilation when it comes to poverty rates, unemployment, and home 
ownership. Figure 9 and 10.
    (5) The age profile of immigrants is a huge demographic bonus to 
native-born Americans. Most immigrants arrive in the United States in 
the prime of their working years. For example, more than 75 percent of 
immigrants who come to the U.S. are above the age of 18 upon arrival. 
This means that there are roughly 17.5 million immigrants in the U.S. 
today whose educational and rearing costs were borne by the citizens of 
the sending country, not American taxpayers. The total discounted 
present value windfall to the United States of obtaining this human 
capital at no expense to American taxpayers is roughly $1.43 trillion. 
Immigration can be thought of as an enormous $1.4 trillion transfer of 
wealth from the rest of the world to the United States Immigration is a 
form of reverse foreign aid.
    (6) Immigrants are huge net contributors to the Social Security and 
Medicare programs. Only 3 percent of immigrants enter the U.S. over the 
age of 65, whereas 12 percent of Americans are over 65--and that 
percentage will grow to 15% within 20 years. Based on the calculations 
of the actuaries at the Social Security Administration, this study 
estimates the total value to the Social Security system from current 
levels of immigration. I find that the total net benefit (taxes paid 
over benefits received) to the Social Security system in 1998 dollars 
from continuing current levels of immigration is nearly $500 billion 
from 1998-2022 and nearly $2.0 trillion through 2072. Continuing 
immigration is an essential component to solving the long term 
financing problem of the Social Security system.
    (7) Immigrant entrepreneurs are a major source of new jobs and 
vitality in the American economy. Most immigrant businesses--like most 
businesses started by American-born entrepreneurs--are not highly 
successful or large employers. But many of America's largest and most 
profitable businesses in today were started by immigrants Immigrants 
who entered the U.S. as refugees, economic immigrants, or family-
sponsored immigrants are now at the helm of some of the nation's 
leading and rapidly growing technology businesses: Hungarian-born 
Andrew S. Grove, recently retired as Chairman and CEO of Intel; 
Algerian-born Eric Benhamou, heads 3Com Corp; Iranian-born brothers 
Farzad and Farid Dibachi founded and heads Diba, Inc.; and Uganda-born 
Ajay Shah, is the chief executive of Smart Modules Technologies. The 
Table shows the income and employment generated by 10 highly successful 
immigrant firms. These 10 firms alone generated $28 billion in revenues 
and employed 75,000 American workers in 1997. The tax revenues paid in 
1997 by the companies directly and their employees was at least $3 
billion.
      Immigration and the Demographic Crisis in Developed Nations
    One of the greatest unheralded economic challenges facing the 
industrialized nations is the demographic bubble due to unprecedented 
low birth rates. Economists are just starting to confront the huge 
economic challenge that the population implosion represents to the 
developed nations of the world. The birth rates in nations like Japan, 
Germany, France, Spain, and Italy are well below replacement level 
fertility. The U.S. is just slightly below replacement level fertility. 
Some industrialized nations, including Japan, Germany, France, Spain, 
and Italy, are significantly below replacement level fertility and 
could experience a severe graying of their workforces. See Figure 14. 
The U.S., by contrast has a demographic safety value: immigration.
    This aging of workforces around the world could have profoundly 
negative impacts on the economies of many of America's major 
competitors. Consider, for example, the level of unfounded liabilities 
in pension programs around the world. As bad as our Social Security 
liability problem is, it is dwarfed by the huge levels of red ink in 
the European nations. Immigration will allow the U.S. to smooth out the 
bumps in our demographic wave in productive ways that most of our 
competitor nations will not or cannot allow. Our immigrant heritage 
allows us to bring in productive immigrant workers, who will, help pay 
the cost of the retirement benefits of everyone sitting in this hearing 
room.
                           Policy Conclusions
    The U.S. legal immigration system works remarkably well, given that 
it has been crafted in a piecemeal way over many years. Most immigrants 
who come to the U.S. today are economic contributors on net. The system 
of family and employer sponsored immigration is effective in getting 
high quality immigrants to come to the U.S. and absorbing them rapidly 
into the labor force and the culture. Immigrant workers have brought a 
flexibility and a work ethic to the U.S. labor market that is sorely 
absent in many of our major competitor nations.
    It is noteworthy that it was not so many years ago that anti-
immigration groups would point glowingly to Japan as an example of a 
nation that prospers without immigration. Japan is now entering its 
second decade of depression. Part of the problem in Japan has been 
economic policy mistakes. But some of its economic maladies are a 
result of low birth rates and Also, the aging of the workforce in Japan 
is a horrendous demographic crisis in that nation. The absence of 
immigrants in Japan has already come to haunt this once formidable 
economic powerhouse.
    It would be economically advantageous to the U.S. to admit more--
perhaps twice as many--highly skilled immigrants each year. This is not 
to say that low skilled immigrants are undesirable. But the economic 
benefits to natives of immigrants with high skill and education levels 
is higher than of immigrants with low skill and education levels. It is 
also true that younger working age immigrants are more beneficial than 
older immigrants.
    It is worth emphasizing that many of the immigrants who have made 
the largest contributions in our society in recent times came to the 
U.S. without the characteristics that often presage success. The 
initial starting place of an immigrant is not always predictive of 
future success on these shores. Andrew Grove, co-founder of Intel, came 
to the America as a refugee and a family that had no money, no skills, 
and no special prospects for greatness. No economist would have likely 
predicted the greatness he achieved. Social scientists have begun to 
try to build profiles of immigrant success--by examining skill levels, 
education, ethnicity, and so on. Such studies are not always very 
predictive of economic success in the U.S.
    It is in America's economic self-interest--and in the interests of 
immigrants themselves--that we keep the golden gates open to newcomers 
from every region of the world. The net gains to U.S. workers and 
retirees are in the trillions of dollars. Given the coming retirement 
of some 75 million baby boomers, we need the young and energetic 
immigrants now more than ever before and therefore we need Congress to 
keep the Golden Gates open.
[GRAPHIC] [TIFF OMITTED] T7276.001

[GRAPHIC] [TIFF OMITTED] T7276.002

[GRAPHIC] [TIFF OMITTED] T7276.003

[GRAPHIC] [TIFF OMITTED] T7276.004

[GRAPHIC] [TIFF OMITTED] T7276.005

[GRAPHIC] [TIFF OMITTED] T7276.006

[GRAPHIC] [TIFF OMITTED] T7276.007

[GRAPHIC] [TIFF OMITTED] T7276.008

[GRAPHIC] [TIFF OMITTED] T7276.009

[GRAPHIC] [TIFF OMITTED] T7276.010

[GRAPHIC] [TIFF OMITTED] T7276.011

[GRAPHIC] [TIFF OMITTED] T7276.012

[GRAPHIC] [TIFF OMITTED] T7276.014

[GRAPHIC] [TIFF OMITTED] T7276.015

[GRAPHIC] [TIFF OMITTED] T7276.016

[GRAPHIC] [TIFF OMITTED] T7276.017


    Chairman Brownback. Thank you. I am just flipping ahead to 
your charts, and I didn't mean for you to have to cutoff too 
quick.
    We will run the clock at 7 minutes here, Dick, if that is 
OK, and we can bounce back and forth.
    Your Chart 15--does that show what happens in countries 
that don't have the level of immigration that the United States 
has?
    Mr. Moore. What this shows is the long-term pension 
deficits of many of our industrialized competitors. What it 
shows is that although we obviously have a problem with our 
long-term Social Security solvency, other countries have a much 
more severe problems, and that is a result of two factors, 
Senator.
    One is that these other countries have very low birth 
rates. In fact, if you look at Table 14, which is the one 
preceding it, it just shows you that there are now 50 countries 
in the world today that actually have fertility rates that are 
below replacement level, and these are most of the 
industrialized countries. Japan France, Italy, Germany, and 
Spain have fertility rates that are, I would argue, of almost 
crisis levels in terms of how low their fertility rates are.
    The United States doesn't face that same problem, and the 
reason is our birth rate has not fallen as much as other 
countries has. But the other is that we have this incredible 
advantage. We have what I call a demographic safety valve, and 
that safety valve is that we can sort of smooth out this 
demographic problem from the huge baby-boom generation by 
letting in young immigrants. Japan and Italy and Spain don't 
have that ability because they are not countries that accept 
many immigrants.
    Chairman Brownback. By economist's standards, are we at an 
optimal immigration level, then, when you look at all of these 
factors? Is that discussed by economists much?
    Mr. Moore. It is really difficult to say.
    Chairman Brownback. I kind of hate to look at it from a 
numbers perspective because they are people that we are talking 
about.
    Mr. Moore. It is very difficult to say, and I would not 
hazard to guess what the optimal number is. What I will say is 
the policy that we have right now seems to be--we are able to 
absorb this number that has come in. It is not causing social 
problems. The economy has proven well able to absorb these 
numbers of immigrants.
    For example, if you look at unemployment rates, although we 
have been the country among industrialized countries that has 
let in more immigrants than all of the other industrialized 
countries combined, guess what? We have half the unemployment 
rate of most of these other countries. So our economy has shown 
an incredible resilience in terms of absorbing these 
immigrants.
    If you asked me what my optimal policy would be, I would 
think we could let more immigrants in, but I am pretty happy 
with the policy we have right now, too.
    Chairman Brownback. Is it safe to say that most economists 
agree that there is not a connection between immigration levels 
and unemployment rates?
    Mr. Moore. Yes. I think there is a fairly strong consensus 
among economists that there is a very weak relationship between 
immigration and unemployment. In fact, all these studies find 
almost no relationship. There is some controversy about whether 
immigrants cause lower wages in some certain occupations. I 
mean, we were talking about cab drivers. There is some argument 
that is made that when you let in a number of immigrants in, 
say, Chicago, they may be holding down the wage rate for what 
cab drivers might make. But those wage limitations are only 
found in some few specific industries and you don't find it 
economy-wide or even city-wide.
    Chairman Brownback. Mr. Leiden, I was disappointed to see 
the figure that the number of refugees that we have allowed 
into America over the past several years has declined by 40 
percent. Now, I don't know if you have looked at these figures 
or numbers, or if you have any thoughts as to why is that 
number down. I have had different people explain and give 
different reasons to me, but that was a striking number to me 
as a new member of this Committee to see.
    What is your take of why that number has decreased so 
substantially in recent years?
    Mr. Leiden. Well, I am not sure I can explain the past 
history, although it is disturbing, as well, to me knowing how 
many displaced persons, how many refugees there are around the 
world. My understanding is that the refugee admissions number 
is set close to the beginning of the fiscal year, and I think 
it is something that the Committee really should be looking 
closely at.
    Chairman Brownback. As a person who has been on the Foreign 
Relations Committee who has traveled to a number of very 
difficult spots in the world, it is not that there is a 
shortage of refugees. I have been in dire situations and 
circumstances where the United States is doing quite a bit to 
try to help as far as feeding assistance and health care 
assistance. We have got some wonderful NGO's out there that are 
really shouldering much of that difficulty, but we could also 
do a lot more, I think, in trying to resolve some of these 
conflicts, a lot of the plight, but also taking more refugees 
ourselves. I was startled by that number, so it is something I 
want to look at more.
    Senator Durbin?
    Senator Durbin. Thank you, Mr. Chairman. When I find myself 
agreeing with the Cato Institute--
    Chairman Brownback. The hearing is adjourned.
    [Laughter.]
    Senator Durbin. I am reminded of Sister Mary Casimir, who 
used to exhort me to examine my conscience from time to time.
    Mr. Moore, let me say that I do accept your premise and I 
think you are right, and I like the information you have given 
us here about our Nation's ability to absorb new numbers, but 
let me take it the next step in pure economic terms.
    If I read the paper correctly, in the last 10 years we have 
seen a 60-percent increase in the Hispanic population in the 
United States. In our home State of Illinois, the number is 69 
percent--a dramatic influx of Hispanics into the United States, 
into Illinois and many other States.
    At the same time, the New York Times reported about 2 weeks 
ago that when it came to school drop-outs, the drop-out rate 
among white students was about 8 percent, among African-
Americans about 12 percent, among Hispanics 30 percent, 31 
percent for Latinos. Now, in purely economic terms, not whether 
it tugs at your heart at not, but in purely economic terms how 
can we let this continue, to allow this mass of humanity to 
come to the United States and not be educated? A substantial 
portion of them are really condemned to be an under-class in 
our society.
    Your Table 9 notes that when it comes to income and poverty 
and home ownership, these new immigrants are not doing quite as 
well as those before them. So in the purest economic sense, 
should we not be investing in this important part of our 
economy, as you have identified it?
    Mr. Moore. Senator, let me start by referring to that Table 
9 that you referred to because I think you may be misreading 
the point that I was trying to make there.
    The point that this chart is meant to make, Senator, is 
that immigrants have what we as economists call an economic 
assimilation rate; that is to say, when immigrants first come 
into the United States, generally they have earnings that are 
lower than Americans do. What happens is that immigrants have 
this very rapid rate--these are on balance, not all immigrants, 
but on balance immigrants tend to climb the economic ladder of 
success at a fairly steep rate of ascent.
    So what this is meant to show is that if you look at the 
new immigrants that are coming in today--for example, if you 
look at, let's just say, people who are making over $50,000, 
you can see that only 3 percent of new immigrants are making 
more than $50,000. But what is showing is that the longer 
period that immigrants are in the United States, the more they 
become like Americans, and in some cases surpass Americans.
    We don't have any evidence of this, but it is my belief 
that if I am here 20 years from now and you are here 20 years 
from now, these 1990 to 1996 immigrants will be just like those 
who came in the 1970's; they will also have climbed the 
economic ladder. So that was the point I was trying to make 
with that.
    Senator Durbin. I see your point, but if you will go back 
to my earlier statistic about school drop-outs.
    Mr. Moore. Well, first of all, I agree it is incredibly 
troubling, and it is true that the more education immigrants 
have and the more skills they have, the better they are for the 
U.S. economy. So I think I agree with your premise that it is 
troubling, and I think that the solution needs to be we have to 
put a big emphasis as a society on educating those immigrant 
children because if you are talking about as we move into this 
new information age society 30 percent of Latino kids without, 
let's say, a high school education, they are not going to make 
the kind of earnings that are going to make them major 
contributors to the United States and they are not going to be 
able to advance themselves. So I think what we have to do then 
is concentrate on how do we get those immigrant kids educated.
    Senator Durbin. Mr. Leiden, let me ask you about your 
testimony and the chairman's question. As I read your 
testimony, one of the reasons for the downturn in the number of 
refugees is we capped it in 1996 and said 5,000 is all we are 
going to take.
    Mr. Leiden. Well, that is for asylum seekers; that is, 
persons who apply for refuge once they are in the United 
States. We capped the number who can get permanent residence. 
So there are tens of thousands of persons who have been granted 
and recognized as bona fide refugees who have asylum status, 
but they can't get the permanent residence.
    That is distinguished from the overseas refugee programs 
which I believe the Chairman was referring to, where there has 
been a drop-off. And it is a decision for us. There are plenty 
of people waiting at the gate. It is a decision for our country 
to say how many people will we let in. As I said before, I 
can't explain exactly why the decision was made last year as it 
was.
    Senator Durbin. At the risk of touching a hot button here, 
we have at various times in our history decided that if you 
have been in the United States ``x'' years, documented or 
undocumented, you will have a chance to become legal. I believe 
if you watch the caseload in my office you understand that. 
Families have been created, homes have been built, jobs are 
being served everyday, taxes are being paid, kids have 
graduated from school. They are legal in everything but the 
paper documentation in terms of what they are doing. They are 
good, positive members of our society, but every time we get 
close to this issue, people say amnesty for illegals, and that 
is usually the end of the conversation.
    I would like to ask each of you if you could comment on 
that element historically in our immigration policy, where we 
are today and what you think we should do.
    Mr. Leiden. Well, as you know, there was the legalization 
program in 1986 that legalized the status of simply the 
principal, not their dependents, if they had been in the United 
States since before January 1 of 1982. Some of the immigration 
that we have seen and the backlogs that we see in the family 
categories now are because only one parent was legalized and 
got permanent residence and then their spouse--some of their 
children are U.S. citizens and some are waiting for their 
family based petitions to come forward.
    There has been for a long time in the law a provision 
called the registry provision. There was initially a date--I 
believe it was in the 1930's--that persons who could establish 
that they were in the United States since before that date 
would qualify for permanent residence. It remained at that 
early date, frankly, until the 1980's, but that helped people 
who didn't have birth records, didn't have arrival records. A 
lot of displaced persons came here after the Second World War.
    That registry date was advanced in--I think in the 1990 Act 
it was advanced to 1972. Now, that is a long time from now back 
to 1972, but it is a way for a very long-term resident to 
qualify for permanent residence, whether they have been 
undocumented or in unlawful status, in a non-immigrant status 
or something. That is something that we have had in the law 
since before 1952 and it is something to look at.
    I am aware of cases, as you mentioned, of the high school 
graduate whose parents call my office and say, my daughter 
wants to go to college, and frankly the options are very bleak.
    Mr. Moore. Are you asking me about the amnesty?
    Senator Durbin. Yes.
    Mr. Moore. I am not trying to duck your question, but it is 
a really tough policy issue because on the one hand you 
mentioned this Korean woman in your opening statement. She is 
not going to go back to Korea, she is going to be in the United 
States. We ought to legalize her because there is no way that 
someone like that is going back to Korea, nor should she go 
back to Korea.
    So these people who have been in the United States for 10 
or 15 years and have been working and contributing, a strong 
case can be made that we should make them legal citizens. On 
the other hand, it is true that if we keep legalizing 
immigrants who came in illegally, that is going to perhaps 
encourage illegal immigration. So it is a tough issue.
    I am not sure what the right answer is, but I do think that 
there is a strong case, on balance, for letting people who have 
been here for 15 years who aren't leaving to have legal status.
    Senator Durbin. Thank you very much. Thanks, Mr. Chairman.
    Chairman Brownback. Thank you.
    I want to thank the panel for your presentation, and I look 
forward to accessing your knowledge greatly as we move forward 
in this Subcommittee. Thank you very much.
    We will call up our second panel. It consists of Jennifer 
Kenney, who is the Director of Global Deployment Shared 
Services for PricewaterhouseCoopers. Her primary role is 
oversight of the firm's U.S. immigration function. In addition 
to immigration, Jennifer is International Mobility Project 
Manager for the global firm in her work.
    Next will be Cecilia Munoz, Vice President for the Office 
of Research, Advocacy and Legislation for the National Council 
of La Raza. She supervises all legislative and advocacy 
activities conducted by NCLR covering a variety of issues of 
importance to Latinos.
    Karen Narasaki is one of the Nation's leading experts on 
Asian immigration. She is President and Executive Director of 
the National Asian Pacific American Consortium, a nationally 
recognized voice on civil rights and immigration issues of 
particular concern to Asian Pacific Americans.
    Finally, our last panelist will be Elizabeth Dickson. She 
is Chair of the Immigration Subcommittee for the U.S. Chamber 
of Commerce, and is Manager of Immigration Services for 
Ingersoll-Rand, a leading diversified industrial equipment and 
components manufacturer. She has been working in this field for 
some period of time.
    Ladies, we are delighted to have you all here with us 
today, and I think we will go in the order that I introduced 
you. I look forward to a short statement. If you would like, we 
can put your entire statement in the record and then we would 
like to have a good discussion if we can. We will run the clock 
at 7 minutes. It is not governing, but if you could keep it 
within that timeframe, it would be appreciated.
    Ms. Kenney?

        STATEMENT OF JENNIFER KENNEY, DIRECTOR, GLOBAL 
         DEPLOYMENT SHARED SERVICES, PRICEWATERHOUSE- 
                   COOPERS, CHICAGO, ILLINOIS

    Ms. Kenney. Thank you, Mr. Chairman and members of the 
Subcommittee. As you said, I am Jennifer Kenney and I work at 
PricewaterhouseCoopers. I am the Director of Immigration 
Services, and I also manage our global international mobility 
programs and initiatives. I too work out of the Chicago office. 
My primary role involves immigration, as I have said.
    PricewaterhouseCoopers is one of the largest professional 
services firms in the world. At PwC, our people are our 
business. Drawing on the talents of more than 160,000 people in 
150 countries, PwC provides audit, tax, finance, and a full 
range of other business advisory services to our clients, who 
are leading global, national and local organizations.
    Many of our clients are Fortune 100 companies. In what we 
call our Global 200, 105 of these clients are U.S. corporations 
with overseas operations. Of the remaining 95 in the Global 
200, 85 are international firms with operations in the United 
States.
    To service our clients and remain competitive, our firm 
employs and often cross-trains highly skilled accounting, tax, 
technology, and finance professionals with experience in 
multiple markets and territories. PwC is one of the largest 
international deployers of resources, with currently over 5,000 
staff and partners working outside their home countries.
    PwC utilizes U.S. employment-based non-immigrant visas to 
temporarily transfer skilled professionals from overseas, hire 
U.S.-educated foreign students, and fill positions where 
sufficient numbers of quality U.S. workers are just simply not 
available. Today, our firm employs in the U.S. over 2,000 
foreign nationals. This represents approximately 4 percent of 
our workforce.
    Of those numbers, 56 percent are what are called H-1B 
foreign nationals or specialty occupation foreign nationals. 
Forty-one percent are L-1 intra-company transferees from 
another PwC office. This is our largest growing number of 
immigrants. Three percent are Trade NAFTA from Canada or 
Mexico.
    The benefits of the non-immigrant visa program to our firm 
and our people are great. Our multinational clients benefit 
from our enhanced global capabilities and our firm is able to 
maintain our global competitiveness. International assignees 
increase their technical and managerial skills, and are able to 
transfer their knowledge back to their home countries. U.S. 
staff also benefit from the experience of working side by side 
with foreign nationals, thus increasing their own skill base.
    Unfortunately, as other panelists have mentioned already, 
the fundamental process of moving people across borders is very 
slow and very closely. Antiquated immigration rules and 
procedures make international mobility very difficult for my 
firm and others. In the U.S. and other countries, it often can 
take months to cut through all the red tape before a temporary 
international assignment can begin, making it very difficult 
for employers to staff their jobs and plan ahead.
    For example, the American Competitiveness in the 21st 
Century Act which recently increased the cap for our H-1 non-
immigrant visas also called for the elimination of the current 
backlog in INS cases and a decrease in the INS processing 
times. As commendable as this piece of legislation is, the INS 
and the Department of Labor are still unable to keep up with 
the volume and catch up on the backlog.
    Currently, service center processing times for H-1B 
approval notices can take between 3 and 4 months. This is up 60 
days, well above the 30 days proposed. Contributing to the 
delay is the Department of Labor's increased turnaround time of 
up to 6 weeks to just approve a labor condition application. As 
a result, our audit and tax practices recently had to turn away 
many previously scheduled foreign nationals who were not 
available to work during our very busy tax season, and as a 
result our company suffered.
    In a related matter, the portability provision allows H-1B 
employees to start work with a new employer in the U.S. and, if 
necessary, travel outside the U.S. upon filing a petition with 
the INS rather than wait the 3 to 4 months for petition 
approval. This is encouraging to employers like PwC, who often 
require employees to travel outside the U.S. on business.
    While the spirit of the legislation is again helpful, the 
implementation is inherently flawed. In the absence of guidance 
in the field, the INS freely admits that many ports of entry 
still may be operating under old regulations. So despite the 
new law, an approval notice may still be required to reenter 
the United States through certain ports of entry. This lack of 
consistency within the INS to enforce new legislation is 
frustrating and costly to many employers.
    Until the INS gets up to speed, PwC is now forced to advise 
our pending H-1B new hires to remain in the U.S. until INS 
approval is actually received, which again could take 3 to 4 
months. Such delays are extremely incompatible with the 
realities of the global market in which we compete, where rapid 
deployment of staff is a business necessity.
    To facilitate processing of non-immigrant visas, PwC 
supports the implementation of established user program, one 
similar to the current L-1 blanket program that works very 
successfully for our firm which requires only 14 days to 
process an L-1 intra-company transferee. Such a program would 
streamline processing and decrease turnaround times for high-
volume non-immigrant visa employers with a proven track record 
like our firm. Such a plan would reduce paperwork and free up 
INS and Department of Labor resources to work on more 
complicated cases.
    To reduce deployment times, PwC also supports the proposed 
June 2001 implementation of the new $1,000 INS fee to expedite 
processing. The fees generated from this program might be used 
to enhance INS information systems to better manage the heavy 
caseload. In the long term, the INS must invest in building its 
electronic filing capabilities and bring its operations finally 
into the 21st century. As a start, electronic signatures on 
employment-based immigration filings should be implemented as 
soon as possible to save time and eliminate costly barriers.
    Another important issue to our firm is the employment of 
spouses for our L-1 intra-company transferees. This is 
currently prohibited in the United States. Inability to obtain 
spousal work authorization is one of the main reasons our L-1 
transferees either end an assignment early or refuse an 
assignment with our firm and leave for other firms or other 
countries within our network. Because of this, PwC endorsed 
last year the Spousal Equity Act, introduced in the last 
Congress, which would grant work authorization for spouses of 
L-1 immigrant visa-holders.
    The hurdles that businesses face in deploying staff also 
act as significant non-tariff barriers to global 
competitiveness. Impaired mobility inhibits trade and 
investment across our borders. It is also detrimental to the 
health of local economies, economies that would otherwise 
benefit from the financial and technological resources that 
typically accompany these types of transfers.
    In conclusion, at my firm we like to think of ourselves as 
the premier and unique professional services organization, but 
when it comes to some of the issues that I have mentioned here 
today regarding immigration, we are in no way unique. Many of 
my counterparts have the same issues that we do. Congress needs 
to make resolving these challenges a priority. Otherwise, we 
will all fall short of the promise of what a global marketplace 
can do to boost our economy.
    Thank you very much for allowing me to testify, and I look 
forward to any questions you may have.
    [The prepared statement of Ms. Kenney follows:]

   Statement of Jennifer Kenney, Director, Global Deployment Shared 
                    Services, PricewaterhouseCoopers

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify today. I am Jennifer Kenney, Director of Global 
Deployment Shared Services at PricewaterhouseCoopers. My primary role 
is oversight of the firm's U.S. Immigration function. In addition, I am 
an international human resources project manager who works on such 
initiatives as orientation programs for international assignees, 
employee satisfaction surveys, external and internal web site 
development and other Global Deployment information systems.
    PricewaterhouseCoopers is the world's largest professional services 
organization. At PwC, our people are our product. Drawing on the 
talents of more than 160,000 people in 150 countries, 
PricewaterhouseCoopers provides financial audits and a full range of 
business advisory services to leading global, national and local 
companies and to public institutions. These advisory services include 
accounting and tax advice; management, information technology and human 
resource consulting; financial advisory services including mergers & 
acquisitions, business recovery, project finance and litigation 
support; business process outsourcing services; and legal services 
through a global network of affiliated law firms.
    Before I address our foreign national employment program, I would 
like to briefly summarize initiatives we currently sponsor in our U.S. 
firm to upgrade the skills of our current and potential American 
workforce and to recruit under-represented minority groups. The 
education of the U.S. workforce in our ever-expanding, knowledge-based 
economy is of critical importance to our firm and our economy. Last 
year, our firm invested over three million dollars in high school and 
college internships, scholarships and mentor programs. Through our 
INROADS National Internship program, PwC employs over 150 summer 
interns who are minority finance, accounting and management students 
from selected colleges and universities across the country. Our 
Minority Scholars Program awards 40, $5,000 scholarships each year to 
accounting and finance students. In addition, PwC awards between 15 and 
20, $1,500 scholarships to distinguished business students who are 
members of the National Association of Hispanic CPAs. PwC also sponsors 
high school mentorship programs in over 4,000 high schools. These 
mentorship programs are designed to generate student interest in 
careers in finance, accounting and technology. Finally, PwC staff and 
partners are actively involved in community youth development programs 
such as Junior Achievement and Big Brother/Big Sister chapters in 
under-developed neighborhoods.
    Each year PwC invests millions of dollars to train our U.S. 
workforce. Our extensive learning and education program includes on-
the-job training, self-paced computer-based learning, and technical, 
managerial and diversity training programs. Each of our lines of 
service develop curriculum to meet the needs of their particular 
business. For example, our management consulting practice provides 
entry-level technology solutions training to new hires through its 
intensive 12-week ASCENT program. Through ASCENT, consultants develop 
IT skills in various programming languages, databases and operating 
systems. ASCENT students also develop necessary problem-solving and 
consulting skills and learn to operate effectively in cross-cultural 
and cross-functional work teams. Other internal, trainer-lead programs 
for staff include: Strategic Change Management, New World Networking, 
e-Business, Ethics, Leadership, Working Across Cultures, SAP, Audit 
Training, and Microsoft Suite and Lotus Notes software training.
    Many of PricewaterhouseCoopers' clients are Fortune 100 companies. 
In what we call our ``Global 200'' portfolio, 105 clients are U.S. 
corporations with overseas operations. Of the remaining 95 clients in 
the Global 200, 85 are international firms with operations in the 
United States. The majority of our clients trade on U.S. Capital 
Markets and Exchanges (i.e., NASDAQ, NYSE, etc.). Due to these 
activities our clients fall under SEC regulations and U.S. financial 
reporting standards which require our global workforce to be 
knowledgeable in U.S. Generally Accepted Accounting Principles (GAAP). 
To ensure quality in our financial reporting services our firm employs 
(and often cross-trains) highly skilled accountants and tax 
professionals with experience in multiple markets and territories.
    Given our global client base, PricewaterhouseCoopers is one of the 
largest international deployers of resources with over 5,000 staff and 
partners currently working outside their home country in a PwC 
affiliated office. In the U.S., PwC utilizes nonimmigrant visas to 
temporarily transfer highly skilled international personnel, hire U.S.-
educated foreign students, and to fill positions where sufficient 
numbers of qualified U.S. workers are simply not available. Today our 
U.S. firm employs over 2,000 foreign nationals, representing a little 
over four percent of our total U.S. workforce of 46,000 individuals. 
Approximately 56% of these foreign nationals hold H-1B ``Specialty 
Occupation'' nonimmigrant visas, 41% hold L-1 ``Intracompany 
Transferee'' visas and 3% hold TN (Trade NAFTA) visas. On average 21% 
of our nonimmigrant visa holders seek permanent residence in the U.S. 
through employment with PricewaterhouseCoopers.
    The benefits of the nonimmigrant visa program to our firm and our 
people are great. Our multinational clients benefit from our enhanced 
global capabilities and our firm is able to maintain our global 
competitiveness. Foreign nationals increase their technical and 
managerial skills and are able to transfer their knowledge to their 
home country. U.S. staff also benefit from the experience of working 
side-by-side with foreign nationals on multinational engagements, thus 
increasing their own skill base.
    Our firm does not have identical skill sets in each of our markets, 
therefore we must tap the skills wherever they happen to reside to 
assemble the best team to service our clients. Rapid mobility of staff 
into and out of the U.S. is required when setting up a new office, for 
specialized knowledge in operations here and abroad, for professional 
training of the workforce, and to expose staff to a client's global 
operations.
    The fundamental process of moving people across borders to get them 
where they are needed is often painful, slow, arduous and costly. This 
is because antiquated immigration rules and procedures--which vary 
widely by country--make it extraordinarily difficult for multinational 
firms to move people across borders on short notice.
    In the U.S. and other countries it often can take months to clear 
all the bureaucratic hurdles before a temporary international 
assignment can begin. Deployment costs have risen significantly. Given 
the complicated patchwork of international procedures that we must 
overcome every day, no amount of money will ensure that we'll be able 
to place, and therefore effectively utilize, our people in the U.S. or 
overseas on a timely basis.
    In the United States, current INS and Department of Labor (DOL) 
processing delays make it extremely difficult for employers and 
potential employees to plan ahead. Employers have deadlines, contracts 
and workload to contend with, while potential employees must often 
leave other positions, sell their homes and relocate their families, 
and factor in tax implications of their move. Even those foreign 
nationals already in the U.S. may be entangled in these delays as they 
are unable to travel outside the U.S. while petitions are pending with 
the INS.
    For example, the American Competitiveness in the Twenty-First 
Century Act recently increased the cap on H-1B nonimmigrant visas and 
calls for the elimination of the current backlog in cases and a 
decrease in processing times. As commendable as this piece of 
legislation is, the INS and DOL are still unable to keep up with the 
volume of petitions. Currently, Service Center processing times for H-
1B approval notices can take three to four months. Contributing to the 
delay is the DOL's increased turnaround time of between three and six 
weeks for approval of H-1B Labor Condition Applications (LCAs). As a 
result our audit and tax practices recently had to turn away many 
previously scheduled foreign nationals because they would have arrived 
in the States to work after our tax busy season due to the exorbitant 
H-1B delays. Not only did these PwC foreign nationals miss a tremendous 
professional opportunity, but it put great stress on our ability to 
timely and effectively complete our financial audits. Some of these 
staff members chose to work in other countries with less restrictive 
immigration processes.
    In a related matter, the American Competitiveness in the Twenty-
First Century Act's portability provision allows H-1B employees 
transferring to another U.S. firm to start work with a new employer 
immediately upon filing of a petition. Under this new legislation, the 
employee does not have to wait for the H-1B petition to be approved 
before traveling for business or personal reasons outside the U.S. This 
legislation is encouraging to employers like PwC who often require 
employees to travel outside the U.S. on business. While the spirit of 
the legislation is helpful, the implementation is flawed. In the 
absence of guidance in the field, the INS has stated that for the time 
being, each port of entry will determine the admissibility of an 
applicant for H-1B status which means that an approved petition may, in 
fact, be necessary to return to the U.S. from a visit abroad. As a 
precaution, PwC is currently advising new H-1B employees to remain in 
the U.S. until their petition is approved, which again, could take 
three to four months. This is incompatible with the realities of the 
global market in which we compete.
    Unfortunately, inordinate delays like this have become the norm and 
the timing couldn't be worse. In today's global economy, the need for 
specialized knowledge and expertise that can be deployed anywhere, 
anytime has never been greater. Accordingly, PricewaterhouseCoopers 
supports the implementation of Established User Programs, similar to L-
1 Blanket programs, that would streamline processing and decrease 
turnaround times for high volume nonimmigrant visa employers with a 
proven track record. Implementation of such programs would reduce 
paperwork and free up INS and DOL resources to work on other cases. The 
United Kingdom has implemented such a program for its corporate clients 
with great success.
    PwC also supports the proposed June 2001 implementation of an INS 
$1,000 fee to expedite processing. Due to high volume and data 
management issues, however, this ``fast track'' service will not be 
available for H-1B visas in the near future. Fees generated from this 
new program might be used to enhance INS information systems to better 
manage the heavy caseload and data. In the long-term the INS must 
invest in building its electronic filing capabilities to bring its 
operations into the 21st century. As a start, electronic signatures on 
employment-based immigration filings should be implemented as soon as 
possible to save time and eliminate courier and other related expenses.
    The vast majority of U.S. and international executives have spouses 
who are working professionals. Some countries, including the U.S., 
maintain laws that prohibit spouses from working in the host country. 
The inability of a spouse to secure employment in the host country 
results in both a loss of dual income and career enhancement 
opportunities. While PwC provides visits home, cultural awareness 
briefings, language training, and nominal financial support--this does 
not make up for an involuntary career break which may mean setting 
aside career goals as well as relinquishing contacts, networks, and 
benefits.
    Inability to obtain spousal work authorization is one of the main 
reasons our L-1 international transferees refuse, or prematurely 
terminate an assignment--and this is exceedingly costly for both the 
company and clients. PricewaterhouseCoopers wholeheartedly endorsed the 
``Spousal Equity Act'' introduced in the last Congress which would 
permit the negotiation of agreements to grant work authorization for 
spouses of L-1 nonimmigrant visa holders. We will work towards 
reintroduction and passage of similar legislation with this Congress.
    The hurdles that businesses face in deploying staff also act as 
significant non-tariff barriers to competitiveness. Despite the World 
Trade Organization's inability to formally launch a broad round of 
negotiations in Seattle, discussions on the services negotiations have 
begun, and the world will continue to search for new ways to expand 
international trade and fuel global economic expansion. Services are at 
the heart of the new economy. Any effort to improve the efficiency and 
the dynamism of the service sector will contribute to global economic 
growth. Not only do certain sectors, such as telecommunications, 
transportation, financial, distribution, professional and information 
services, play a key role in a country's infrastructure, but the new 
manufacturing economy also benefits from innovative and efficient 
services crucial to production, such as product design and engineering, 
marketing and distribution, outsourcing, and globalization strategies.
    Whatever progress that can be made in reducing trade barriers will 
be mitigated, however, if business isn't able to move people in a 
timely and efficient manner to support the sale of products and 
services around the globe. Until deployment procedures are expedited 
around the world, business will not be able to adequately support the 
movement of goods and services. And everyone will continue to suffer. 
Impaired mobility inhibits trade and investment across borders. It's 
also detrimental to the health of local economies--economies that would 
otherwise benefit from the financial and technological resources that 
typically accompany employee transfers.
    The demands of global trade are such that response time is critical 
to servicing of goods and the delivery of services. If we don't fix the 
problem now, it becomes that much more difficult in the future. 
PricewaterhouseCoopers has been working both in the U.S. and in Europe 
to ensure that liberalization for temporary entry of service 
professionals is on the agenda of trade negotiators. It is imperative 
that the U.S. and our trading partners make more meaningful commitments 
to establish a rapid deployment capability that provides for 
transparency, predictability, harmonization and speed in moving our 
business personnel around the world to service a global economy.
    In conclusion, at PricewaterhouseCoopers we like to differentiate 
ourselves as the premier and unique professional services firm. 
However, when it comes to immigration, the challenges we face are in no 
way unique, nor are they easily remedied. My counterparts at both like-
size firms and smaller organizations deal with many of the same issues 
I mention here today. Congress needs to make resolving these challenges 
a priority, otherwise we all will fall short of the promise of what a 
global marketplace can do to boost our economy.
    Thank you again for the opportunity to present my firm's views at 
today's hearing. I look forward to your questions.

    Chairman Brownback. Thank you, and I appreciate your 
thoughts, particularly your specific items that hopefully we 
will have a chance to address.
    Ms. Munoz, thank you for joining us.

STATEMENT OF CECILIA MUNOZ, VICE PRESIDENT, OFFICE OF RESEARCH, 
    ADVOCACY AND LEGISLATION, NATIONAL COUNCIL OF LA RAZA, 
                        WASHINGTON, D.C.

    Ms. Munoz. Thanks, Mr. Chairman. I am happy to be here, and 
I want to thank you especially for the tone that you set both 
with the nature of this hearing and the nature of your opening 
comments. I couldn't help as you were speaking but contrast 
that with the last time I testified, which was less than a year 
ago before the other body, where the witness who spoke before 
me had a number of complaints about immigrants and Latinos, the 
most colorful of which was his impression that we all keep 
goats in our backyards.
    This is a much different tone, a much different attitude, 
and we appreciate that more than I can say.
    Chairman Brownback. Thank you for noticing it.
    [Laughter.]
    Ms. Munoz. The numbers that are coming out of the 2000 
Census are a good illustration of why the immigration issue is 
so important to the Nation's Latinos.
    Chairman Brownback. Aren't they astounding?
    Ms. Munoz. They are astounding.
    Chairman Brownback. I open up the paper almost everyday 
just to look at a different set of them, and I just think this 
is amazing. It is beautiful what is taking place, but it really 
is striking. I don't mean to interrupt you, but it is so 
impressive to see.
    Ms. Munoz. And for us it is part of the American story. It 
is a continuation of our history, and what this is is a 
phenomenon that has been true of this country as long as we 
have been a country. And to be part of that and to have that 
trend continuing and to have our community be a big piece of 
that is an extraordinary thing. And we are mindful of that as 
an historic moment, but as one of many historic moments that 
have been about demographic change.
    That has been what makes us great as a Nation, and 
immigration is obviously a very important part of that. We 
think that is what makes us strong. As we know, immigrants are 
transformed by the experience of becoming Americans. We also 
know that America itself is transformed and reinvigorated and 
enriched in so many ways by the presence of immigrants.
    We clearly do well by doing the right thing; that is, by 
having a policy strategy that is about reuniting families and 
protecting refugees and providing for specific labor needs. 
This benefits not just the immigrants that we are talking 
about, but it benefits all of us as a whole.
    Indeed, while the basic framework of our legal immigration 
policy is the right one, it is also true that the way in which 
we implement our immigration laws is far out of step with the 
reality that immigrants come and work and are an asset to this 
country in a number of ways. And they deserve to be treated 
with respect and a commitment to equity, and under our current 
laws that is not happening and that needs to change.
    Across the country, legal residents and U.S. citizens face 
the separation of their families, inappropriate detention and 
deportation, major damage to due process of law, and distinctly 
unequal treatment under the law. I would hope that this 
Subcommittee would turn its attention to the major ways in 
which immigration policy reflects an attitude that commits a 
grave injustice to our Nation's immigrants and to their many 
contributions to this Nation.
    I want to outline just four areas that I know are either 
coming up in the policy debate or really should come up in the 
policy debate. I should say that this could have been a lot 
longer and I have tried to take it easy on you in this first 
statement.
    We know that reform of the INS is going to be an issue. You 
highlighted it. It is important to highlight it. We also note 
that President Bush made it a campaign issue, and we are glad 
for that. For us, the bottom line is accountability. You 
described the need for accountability and for swift and 
efficient processing of naturalization petitions and family 
petitions and the other kinds of applications before the INS.
    We would also apply the same standard to the way INS 
conducts its enforcement. There are far too many of us who, 
because we are walking down the street or driving down the road 
and happen to look like we might be Mexican, are pulled over, 
stopped, harassed, detained by local law enforcement as well as 
by the INS, and often in collaboration. The way INS enforcement 
is conducted has for decades been an extraordinary disservice 
to our commitment to justice and equity in this country. It 
feels like it is aimed against Hispanic Americans.
    Any debate and discussion on reform of the INS needs also 
to focus on the question of accountability, standards for 
enforcement, and making sure that the INS is doing its job well 
and efficiently and thoroughly. We support law enforcement, we 
support border enforcement, but the way that we do is 
important, and it needs to be consistent with our laws and 
values.
    We also note that today there are bilateral discussions 
between the Mexican and U.S. Governments particularly around 
the question of guest workers and migration. We welcome the 
discussion. We think it is very constructive to have a 
bilateral discussion, and we take the position that any 
legislation related to temporary labor particularly in 
agriculture, or the service sector for that matter, needs to 
recognize the circumstances in which particularly farm workers 
live and work in the United States. These are conditions which 
more resemble the 19th century than they resemble what they 
should.
    We believe that this discussion needs to start to put farm 
workers on equal footing with other American workers with 
respect to wages and labor rights. In particular, we have 
argued that any legislation affecting farm labor in the U.S., 
including this guest worker discussion, be consistent with a 
couple of fundamental principles before being considered by 
this Subcommittee.
    First, any policy aimed at this sector must improve 
substantially the labor protections available to farm workers 
and the enforcement of these protections. It is unreasonable 
that farm workers live and work in conditions in the United 
States under a set of standards which are far lower than that 
expected by every other part of the U.S. workforce.
    We also think legislative reforms need to recognize that a 
substantial part of the existing agricultural workforce lives 
and works in the United States without the benefit of 
immigration status. It is in the long-term best interests of 
the country, the industry, and the workers themselves to 
provide individuals with an opportunity to adjust their status 
and reunite with their families.
    Thirdly, I just want to highlight that there are a number 
of ways in which we need to revisit the laws which were enacted 
in 1996. There is a long list of excesses still present in the 
law which do nothing to forward the cause of immigration 
control and do extraordinary harm to immigrant families and to 
the Nation's commitment to equal justice.
    This includes unnecessary barriers to the reunification of 
families caused by a number of different policies, including 
the failure to fully extend section 245(i) and the creation of 
arbitrary financial requirements for the reunification of 
families. It also includes the injustice of court-stripping 
which has deprived innumerable immigrant families of their 
rights and the automatic deportation of illegal residents who 
committed minor offenses of10 years ago and have already repaid 
their debt to society.
    There are a variety of provisions in the law which 
undermine the confidentiality of immigrants and their families, 
and cause people to fear law enforcement and other public 
officials. There is a very long list here and we believe that 
as part of our commitment to justice and fair treatment for 
these folks who are contributing so much, we really need to 
take a look at the most punitive, most excessive aspects of the 
1996 law, reopen them, and address them.
    I also want to again underscore the question of immigration 
enforcement. I talked about racial profiling already and the 
way that immigration enforcement is conducted. This has as 
profound impact on Hispanic Americans at the border, but also 
in the interior.
    Many of the calls that we get about racial profiling or 
harassment at the hands of INS come from Nebraska, Kansas, 
Iowa, Arkansas, Tennessee, come from parts of the country that 
we didn't use to hear from before. We are also concerned about 
the INS' increased use of verification systems, sometimes in 
collaboration with the Social Security Administration in a way 
that is affecting industries and also affecting workers and 
their families.
    We have noted--in fact, we have worked with you in the past 
on this issue--that there are high error rates in these data 
bases, and people's ability to work and stay with their 
families are being jeopardized by faulty data and by the use of 
verification systems which are really putting people in harm's 
way. We believe these policies need to be reconsidered.
    I just want to conclude, Mr. Chairman, by saying that the 
Subcommittee has an extraordinary opportunity right now to 
honor the many contributions that immigrants make energizing 
our economy and revitalizing our communities. We appreciate 
that you are viewing these folks as people and parts of 
families rather than numbers, and we urge you to lead the 
charge in restoring fairness to our laws.
    Thank you.
    [The prepared statement of Ms. Munoz follows:]

    Statement of Cecilia Munoz, Vice President, Office of Research, 
 Advocacy and Legislation, National Council of La Raza, Washington, DC 
                                 20036

                            I. Introduction
    Mr. Chairman, I appreciate the opportunity to provide this 
testimony on behalf of the National Council of La Raza (NCLR), the 
largest national constituency-based Latino civil rights organization. 
NCLR is an umbrella organization for more than 250 affiliates--
community-based institutions that provide a wide range of services to 
more than 3.5 million Latinos each year. NCLR has long been involved in 
the public policy debate on immigration; for us this is a civil rights 
issue of fundamental importance. Immigration policy is a priority for 
us not because so many Latinos are immigrants--indeed many of our 
fellow Americans are surprised to learn that the majority of Latinos 
are native-born U.S. citizens--but rather because immigration policies 
tend to affect us all, whether or not we were born here.
    The initial reports emerging from the 2000 Census illustrate why 
the immigration issue is so important to Hispanic Americans. While many 
of us come from communities that became American by conquest, the 
fastest growing segments of the Latino community are either immigrants 
themselves or the products of immigration. The extraordinary growth of 
our community, which is emerging as a force throughout the U.S., 
demonstrates the power of the immigration phenomenon and the ways in 
which the classic American story is being repeated all over the 
country. One of the many reasons for our strength as a nation is this 
repeating process, through which immigrants are transformed by the 
experience of becoming Americans, and America itself is also 
transformed, enriched, and reinvigorated by the presence of immigrants.
    Few Americans doubt that our tradition as a nation of immigrants is 
one of America's defining characteristics; the diversity this fosters 
is a big part of what makes our country unique. There is ample evidence 
supporting the notion that this continues to be true; immigrants who 
choose to make their lives here enrich the United States economically, 
socially, and culturally. Immigrants contribute about $10 billion to 
the U.S. economy each year. If you account for the impact of immigrant-
owned businesses, this figure is likely to be far higher. A vast array 
of observers, including key business leaders, the AFL-CIO, and the 
Chairman of the Federal Reserve, have pointed to immigration as a key 
element in the nation's recent economic growth--the hard work of 
immigrants has been essential to creating the unprecedented prosperity 
that America enjoys.
    But it is also part of the American story that the very processes 
of immigration and demographic change are sometimes greeted negatively. 
Even as immigrants have enriched the nation, they have also been 
attacked for not seeming educated enough, skilled enough, or 
``American'' enough to belong here. There are anti-immigrant 
organizations and movements working today to raise concerns about 
current waves of immigration. At their best, these organized movements 
provoke discussion and debate; at their worst, they promote hatred and 
bigotry. These movements have often shaped the nation's policies toward 
immigrants, from the exclusionary laws that dominated American policy 
until the middle of the 20<SUP>th</SUP> century to the most recent 
major immigration reform enacted in 1996, which reflects significant 
anti-immigrant sentiment.
    The U.S. clearly does well by doing the right thing--our policy 
strategy of reuniting families, protecting refugees, and providing for 
specific labor needs appears to benefit not simply the immigrants 
themselves, but America as a whole. Indeed, while the basic framework 
of our legal immigration policy is the right one, the way in which we 
implement our immigration laws is far out of step with the reality that 
immigrants are an asset to the U.S. and who should be treated with 
respect and a commitment to equity. Our most recent set of immigration 
reforms was drafted at the height of a wave of anti-immigrant 
sentiment; the impact of these reforms on many hard-working immigrants 
and their families has been devastating. Across the country, legal 
residents and U.S. citizens face the separation of their families, 
inappropriate detention and deportation, major damage to due process of 
law, and distinctly unequal treatment under the law. Indeed, immigrants 
are subjected to a set of policies that are unthinkable for other 
Americans--our nation's commitment to equal justice has been severely 
undercut by recent changes in immigration law. In addition, the 
Immigration and Naturalization Service (INS) has long been notorious in 
immigrant communities for its poor treatment of the individuals and 
families it is meant to serve. I would hope that this Subcommittee 
would turn its attention to these major ways in which immigration 
policy reflects an attitude that commits a grave injustice to our 
nation's immigrants and their many contributions to the nation.
                         II. Reform of the INS
    During the recent presidential campaign, then-candidate George W. 
Bush made a public commitment to implement substantial reforms of the 
INS in order to improve its effectiveness and responsiveness to the 
communities it serves. NCLR, like the vast majority of Latinos, 
welcomes this commitment and is looking forward to working with 
President Bush's Administration and the Subcommittee to realize this 
particular vision. The Latino community has an enormous interest and 
stake in the reform of the INS. However, the issue is not simply 
reforming the agency, but doing it in a way which promotes equity and 
accountability. If last year's legislation on reform of INS serves as a 
guide to this year's debate, NCLR would be comfortable with the 
approach in last year's Senate bill. However, if the House bill 
provides the framework, we would be forced to oppose.
    NCLR agrees with President Bush that one of the principal 
priorities for INS reorganization is to improve its accountability for 
fair and speedy adjudication of the numerous petitions that come before 
it: for family visas, political asylum, citizenship, and other 
important processes. We have long complained that a mentality of 
enforcement has been too visible in the administration of these 
processes; while most INS personnel do their jobs well, there are too 
many who still believe that their responsibility is to look for ways to 
``get'' people as they go through routine processes like naturalization 
and visa processing. As a result, our community fears any contact with 
the INS; even those who have no reason to fear a naturalization 
interview believe that the adjudicator might find some excuse to deny 
their petition, or worse. Enough people have found themselves detained 
or ensnared in complicated bureaucratic processes to make these fears 
warranted.
    In addition, backlogs processing continues to plague the system. 
Recent efforts to speed up naturalization processing have had a 
positive impact, but only at the expense of slowing down the 
adjudication of other important petitions. It is unreasonable for an 
agency of the size and scope of INS to send teams of adjudicators from 
backlog to backlog, reducing one set of problems while another one 
builds. This clearly indicates the need for adequate resources, 
appropriate training, and a long-term strategy to ensure that the 
agency can fulfill its mission. There are still far too many problems 
that result in extraordinary delays for thousands of people; lost 
applications are commonplace, as is poor treatment of those who come to 
inquire about the status of their applications.
    NCLR believes that accountability for the way INS conducts its 
enforcement activities is an equally important goal for the 
reorganization of INS. We have opposed legislation to reform the agency 
in the past because we believed that it would reduce accountability on 
the enforcement side and increase the kinds of abuse that affect far 
too many Latinos. Immigration enforcement often runs afoul of the civil 
rights of Hispanic Americans, including U.S. citizens and legal 
residents who are mistaken for immigrants because of their ethnic 
appearance. In border communities, generations of Latinos have 
complained about being asked to prove that they belong in their own 
neighborhoods; these practices are increasingly evident in the interior 
of the U.S. INS increasingly enlists other agencies in its enforcement 
strategies, including the Social Security Administration and local 
police forces, in a way that is both highly invasive and abusive. Part 
of the discussion on reform of the INS must include the establishment 
of law enforcement standards that protect the rights of those who come 
into contact with INS and accountability for the way the entire 
enforcement operation is conducted.
                   III. Farmworkers and Guestworkers
    The debate on agricultural labor and guestworkers has already 
emerged as a major issue this year. NCLR has a long history in this 
debate; we are extremely concerned about the treatment of farmworkers 
in the U.S., which we have repeatedly expressed to this Subcommittee. 
NCLR strongly believes that any policy debate on agricultural labor 
must start from the perspective that the status quo is unacceptable; it 
is unreasonable for the nation's farm laborers to continue to live and 
work in conditions that resemble the 19th century more than they do the 
modern workplace. For this reason, we have strongly opposed legislation 
that has been introduced in the last several Congresses to expand the 
existing H-2A temporary worker program and reduce its labor 
protections.
    The context in which this debate takes place is important; there is 
ample evidence to suggest that the major claim of the agricultural 
industry--that they have a labor shortage and must therefore import 
temporary workers--is unsubstantiated. A variety of recent reports, 
including by the U.S. General Accounting Office, have documented a 
surplus of agricultural labor. The GAO analyzed unemployment data in 
the 20 major agricultural-production counties in the United States and 
found that most have double-digit unemployment rates. Nor is there an 
impending shortage.
    Additionally, employers have not sought to stabilize the labor 
market. Farmworkers' wages have declined in real terms during the last 
decade, and poverty rates have increased during the last few years, 
according to the Department of Labor. If there were a labor shortage, 
we would have seen employers increasing wage rates and offering other 
inducements. Rampant violations of minimum and other labor protections 
persist, according to recent studies.
    There are strong indications that labor-intensive agribusiness can 
afford to pay a living wage. Agricultural productivity has increased 
substantially. The value of production of fruits, vegetables, and 
horticulture--labor-intensive crops--grew by 52% to $15.1 billion 
between 1986 and 1995. Exports of these products nearly quadrupled 
between FY 1986 and FY 1997, reaching $10.6 billion. Farmworkers did 
not share in that increase.
    NCLR takes the position that any legislation related to temporary 
labor in agriculture or the service sector must recognize these 
circumstances and begin to address them in a way which puts farm 
laborers finally on equal footing with other American workers with 
respect to wages and labor rights. In particular, we have argued that 
any consideration of legislation affecting farm labor in the U.S., 
including the guestworker discussion, be consistent with several 
fundamental principles before being considered by this Subcommittee. 
First, any policy aimed at this sector must improve substantially the 
labor protections available to farmworkers and the enforcement of such 
protections. It is unreasonable that this sector functions under a set 
of labor standards far below the rest of the U.S. workforce. Any change 
in the law must result in substantial improvements in wages and working 
conditions for farmworkers. Similarly, legislative reforms must 
recognize that a substantial part of the existing agricultural 
workforce lives and works in the U.S. without the benefit of legal 
immigration status. It is in the long-term best interests of the 
country, the industry, and the workers themselves, to provide 
individuals with an opportunity to adjust their status and reunite with 
their families. NCLR believes that any reforms that simply expand the 
guestworker structure without significant improvements in labor 
standards and access to adjustment are incomplete, and likely to 
perpetuate the unacceptable conditions in which farmworkers live and 
work.
                        IV. Revisit the 1996 Law
    There is no greater evidence of the disconnect between the 
important and well-recognized role that immigrants play in the economy 
and society of the U.S. and their treatment under the law than the laws 
passed in 1996, which have had a devastating impact on immigrant 
families and their basic rights. In particular, the Illegal Immigration 
Reform and Immigrant Responsibility Act (IIRIRA) and the Personal 
Responsibility and Work Opportunity Reform Act (PRWORA) enacted that 
year have become potent symbols of an ugly anti-immigrant era whose 
legacy is the atrocious treatment of immigrants and their families. 
While there have been modest reforms to remedy some of the ugliest 
provisions in these laws, there are still substantial reforms necessary 
to prevent the needless hardships endured by immigrant families which 
continue to shock their neighbors and communities.
    There is a long list of excesses still present in the law which do 
nothing to forward the cause of immigration control, and do great harm 
to immigrant families and the nation's commitment to equal justice. In 
particular, NCLR hopes that this Congress will address:
    <bullet> The unnecessary barriers to the reunification of families 
caused by several different provisions, including the failure to 
permanently extend section 245i, and the creation of arbitrary 
financial restrictions
    <bullet> The injustice of ``court stripping,'' which has prevented 
judges from offering leniency, and which has denied thousands of 
immigrants access to legal status for which they are eligible
    <bullet> The automatic deportation of legal residents who committed 
minor offenses years ago and have since paid their debt to society
    <bullet> A variety of provisions that undermine the confidentiality 
of immigrants and their families, and undermine their confidence in law 
enforcement and other public officials
    <bullet> The lack of parity in the treatment of all of the refugees 
from the Cold War, particularly those from Central America who have 
made their homes in our communities for more than a decade
    <bullet> The continuing impact of welfare reform, particularly on 
the health and nutritional status of legal immigrant children
    NCLR strongly believes that it is in the best interest of the 
nation to rededicate itself to fair and equal treatment under the law. 
These policies, which tear families apart and undermine our nation's 
commitment to equal justice under the law, are more than a disservice 
to hard-working immigrants and their families; they undermine the 
commitment to fairness and equity that all Americans value.
                  V. Enforcement Issues and Practices
    NCLR has grave concerns about the way in that immigration 
enforcement is conducted. While we, like most Hispanic Americans, agree 
that the nation has a right to enforce its laws and control its 
borders, the manner in which we engage in these efforts must be 
consistent with our laws and values. Unfortunately, immigration 
enforcement has for many decades been conducted in a way that 
undermines the rights that Americans hold most dear. Hispanic 
Americans, immigrant and native, continue to suffer abuse in the name 
of immigration enforcement.
    The border between the United States and Mexico is an obvious focus 
of concern; the number of border enforcement personnel has increased 
dramatically in recent years. NCLR has long been concerned about the 
lack of adequate standards and training in the conduct of enforcement 
personnel. As large numbers of new officers are added, these concerns 
about their preparation are growing. In addition, along with many 
observers in the international and human rights communities, NCLR is 
alarmed at the number of deaths at the border. For many years, we have 
argued that an effective and humanely implemented deterrent at the 
U.S.-Mexico border is a key element of an immigration control strategy. 
It has since become clear that the cost for our current deterrence 
strategy is excessively high; over 600 people have died attempting to 
cross our border since it was implemented in the mid-1990s. This is an 
unacceptable and tragic outcome, which more than justifies a re-
evaluation of the nation's strategy at the border.
    NCLR is also highly concerned about the strategies being deployed 
by INS in the nation's interior. We have formally protested the 
strategy of creating ``Quick Response Teams'' (QRTs) in communities 
with emerging Latino populations. Our analysis of the response to this 
initiative suggests that a major result of this policy is the 
harassment of Latinos and others whose ethnic appearance suggests to 
law enforcement officers that they might be immigrants. The presence of 
INS in these communities often leads to improper collaborative efforts 
between INS and local police, who regularly stop Latino drivers and 
pedestrians and demand proof of immigration status. NCLR receives 
reports from all over the country of abuse at the hands of local police 
who have either come to believe on their own or have been persuaded by 
INS that their jobs should include immigration enforcement. Not only is 
this improper under the law, it seriously jeopardizes the public safety 
by destroying Latinos' confidence in their local law enforcement 
agencies. When entire communities begin to believe that the police are 
a source of harassment rather than protection, it becomes difficult to 
enforce the law and protect the public. NCLR strongly believes that 
these arrangements do little to advance immigration enforcement, and 
they do great harm to the larger community, not to mention to the 
fundamental rights of those of us whose only ``infraction'' is the fact 
that to others we look ``foreign.''
    In addition, INS continues to use invasive verification procedures 
as a key enforcement strategy in a way that is undercutting immigrant 
communities and entire industries. For example, in 1999 through 
Operation Vanguard, INS compelled the entire meatpacking industry in 
Nebraska to turn over its employment records for verification. INS then 
attempted to verify these workers through its own databases, which are 
known to have substantial error rates, and those of the SSA, which are 
also inadequate to demonstrate the workers' eligibility to work legally 
in the U.S. The result of this operation was massive displacement of 
workers, including those who were legal residents, but who mistakenly 
turned up as potential problems in the data match. These immigrants, 
who are legally here but who also fear any contact with the INS, left 
their jobs rather than attempt to clarify their records. NCLR has long 
argued that INS verification schemes are unlikely to have an impact on 
illegal migration, but will clearly undermine the rights of workers 
caught up in problems as a result of faulty data. We believe that the 
use of verification systems as a tool in immigration enforcement must 
be re-evaluated.
                             VI. Conclusion
    In conclusion, Mr. Chairman, NCLR believes that this Subcommittee 
has a tremendous responsibility and a great opportunity in the 
107<SUP>th</SUP> Congress. Immigrants throughout the United States, 
whose populations are more diverse than ever, and whose presence is 
felt throughout the nation, know well that they are not afforded the 
respect they deserve under our immigration laws. Neither they nor NCLR 
argue for a massive liberalization of immigration law, nor for great 
expansions in the number of immigrants who come to the U.S. But we do 
argue for family reunification, due process of law, protection for 
those fleeing persecution, equal treatment, and respect. Immigrants 
know well that their hard work and commitment to their chosen country 
is part of a long and extraordinary tradition that has made America 
great. We diminish that greatness when we allow excessively harsh, 
unjust, and inhumane laws to remain on the books. This Subcommittee has 
an opportunity to honor the many contributions that immigrants make in 
energizing our economy and revitalizing our communities. We urge you to 
lead the charge in restoring fairness to our laws.

    Chairman Brownback. Thank you, and thank you for the 
admonition at the end. I intend to do that.
    Ms. Narasaki, it is delightful to see you again and I look 
forward to your testimony.

    STATEMENT OF KAREN K. NARASAKI, PRESIDENT AND EXECUTIVE 
  DIRECTOR, NATIONAL ASIAN PACIFIC AMERICAN LEGAL CONSORTIUM, 
                        WASHINGTON, D.C.

    Ms. Narasaki. Good afternoon, Mr. Chairman. I couldn't ask 
for a better birthday gift.
    Chairman Brownback. Happy birthday. I won't sing.
    Ms. Narasaki. We appreciate your inviting us to testify on 
the subject of Asian immigration and to offer our views on work 
that we hope we can accomplish together with this Congress this 
year.
    We do have extensive written testimony which we are asking 
to be submitted into the record.
    Chairman Brownback. Without objection.
    Ms. Narasaki. Before I formally begin, I would also like to 
take the opportunity to thank you, Mr. Chairman, for your 
leadership in the 1996 battles to retain the family based visa 
categories. Your work was of profound importance to our 
community and to the Nation.
    We share your belief, as you so recently and eloquently 
stated, that America's greatest strength remains its openness 
to new ideas and to new people. That is why we are committed to 
fair, generous, and non-discriminatory immigration policies.
    Immigration policy is particularly important to the Asian 
community because one-third of the immigration to the U.S. over 
the last three decades has really been from Asia. Although we 
are only 4 percent of the Nation's population, we are one-
quarter of the Nation's foreign-born.
    Many Asian immigrants are fleeing persecution and seeking 
freedom for themselves and their families. Others are seeking a 
place where they can fully apply their talents, whether it is 
in arts, athletics, science, or business. Still others seek to 
reunite with their parents, their children, or their brothers 
and sisters, and to contribute to each other's and their 
family's well-being.
    That is why we believe it is critical that our immigration 
system maintain a balance between the employment, family, and 
refugee asylum-based immigration categories. We want to 
particularly focus on family based immigration because it has 
been the cornerstone of U.S. immigration policy.
    Well over 90 percent of the Asian community has arrived 
through the family based categories. Immigrants who entered the 
U.S. as adult kids or as brothers and sisters include countless 
individuals who have contributed to our Nation's life and 
economy, and who have served honorably in our armed forces.
    From small businesses to high-tech companies, Asian 
immigrant entrepreneurs have been a critical element in the 
revitalization of many urban communities across the country. 
Many of them were sponsored into this country by their siblings 
or parents who emigrated earlier and became citizens.
    Also, family visa policies have a direct impact on the 
power of America to continue to attract the world's most 
talented personnel to compete in the global market. The ability 
of immigrants, refugees and asylees to become emotionally and 
economically stable and socially integrated into society 
increases when their family members are able to join them.
    For example, take the case of Ming Liu, a design engineer 
for a U.S. telephone and electronic equipment company from 
China. He was more than meeting his employer's expectations, 
but he became a much better worker after his wife and child 
were able to join him in Fremont after a long 2-year wait. His 
productivity skyrocketed and his boss noted that Liu not only 
was a better worker, but became more open socially at work. And 
it allowed him to subsequently create an innovative concept 
that helped the company to change direction and increase sales. 
Liu said that the arrival of his family allowed him to breath 
again.
    In Asian immigrant families, adult children often work 
together to take care of aging parents. Grandparents take care 
of grandchildren while the parents work. Brothers and sisters 
pool their resources to send nieces and nephews to college, to 
open family businesses, and to buy homes. Their children often 
work in these businesses.
    Unfortunately, historical exclusion and a failure to 
address growing family backlogs has resulted in an inordinately 
long wait for most of these families, waiting as spouses, 
siblings, and children. Close to half of the family backlogs 
are of individuals from Asian countries, and many have been 
waiting 10 to 20 years to rejoin their families here in the 
U.S.
    Because of the per-country caps and limited family quotas, 
American citizens petitioning for adult unmarried children from 
the Philippines face a wait longer than that of those for legal 
permanent residents, which means that the Filipinos in our 
community have a disincentive from becoming citizens. The 
waiting times are so long that children may become 21 years of 
age while their parents wait to reunite with their parent or 
sibling. The families often are faced with an incredibly 
decision of moving and leaving an adult child behind to wait in 
an even longer line. If petitioners become citizens and the 
adult children marry in the meantime, they are put in yet 
another long line, some of them waiting as long as 7 years.
    Last year, Congress took the first step in addressing the 
growing issue. The new V visa category allows spouses and minor 
children of permanent residents who have been waiting at least 
3 years to enter and obtain work authorization. However, this 
is only a partial relief to a much larger problem.
    The current waiting times for family visas, we believe, 
undermines the entire immigration system, and we are urging the 
Subcommittee to hold hearings on the issue and develop a 
solution that will help us to reunite these families in a more 
efficient and fair way.
    We have also supported employment-based immigration when it 
meets a strongly articulated need for our economy, an 
employer's need to create a longer-term solution, and it 
provides a means of adjustment. This option, we believe, is 
critical for making sure that employees who invest their 
talents here are able to put down roots if they choose.
    Consequently, we supported the legislation to raise the 
caps on the H-1B visas, over half of which have been issued to 
immigrants from Asia. A recent Department of Labor interim 
rule, however, is frustrating Congressional intent to allow 
these workers to move quickly from one company to another. We 
urge this Subcommittee to look into this issue and work with 
INS and the Department of Labor to make sure that they are 
working in concert with the legislation.
    There are a number of other issues that I would like to get 
to. On asylum seekers and refugees, there is a lot of 
unfinished business with refugees from Southeast Asia, 
particularly those who were allowed in as public interest 
parolees under Attorney General Edwin Meese's orders in the 
late 1980's. They still have been unable to regularize and 
become permanent residents.
    Legislation was passed last year, but the INS has as yet 
failed to take any action to put forward guidelines for how 
these people are allowed to adjust under the new legislation, 
and, in fact, have instructed their filed offices to reject any 
applications that are being filed.
    Finally, on adjustment of status, we share Senator Durbin's 
concern about the continuing plight of undocumented immigrants, 
particularly those who have strong roots in our community. We 
hope the Subcommittee will examine this difficult issue and the 
various approaches by which we can solve this current problem.
    There are a number of issues that we would like to address, 
and I look forward to working with this Subcommittee to address 
them.
    Thank you.
    [The prepared statement of Ms. Narasaki follows:]

   Statement of Karen K. Narasaki, President and Executive Director, 
            National Asian Pacific American Legal Consortium

    Mr. Chairman and Members of the Subcommittee:
    Thank you for inviting me be able to offer the following testimony 
on behalf of The National Asian Pacific American Legal Consortium. The 
National Asian Pacific American Legal Consortium (``NAPALC '') is a 
nonprofit organization whose mission is to advance and protect the 
legal and civil rights of Asian Pacific Americans across the country. 
Immigration policy is particularly important to NAPALC because of the 
large percentage of immigrants in the Asian-American community and the 
long history of racially discriminatory treatment of Asian and Pacific 
Islanders by our country's immigration laws.
    NAPALC and its Affiliates, the Asian-American Legal Defense and 
Education Fund in New York, the Asian Law Caucus in San Francisco, and 
the Asian Pacific American legal Center of Southern California, 
collectively have over 75 years of experience in providing direct legal 
services, community education, and advocacy on immigration law and 
immigrant rights issues.
    NAPALC pursues fair, generous and nondiscriminatory immigration 
policies. We believe that history has proven that the United States has 
thrived economically and socially because it is a nation of immigrants. 
We collect data and educate policy makers as to the impact of various 
proposals. We also monitor implementation of immigration laws by the 
Immigration and Naturalization Service and provide technical assistance 
and education materials about changes in the immigration laws of most 
relevance to the Asian Pacific American community.
        I. The History of Asian Immigration in the United States
                        a. historical exclusion
    The history of this country's immigration laws has been fraught 
with racial bias. The Chinese Exclusion Act of 1882 which prohibited 
the immigration of Chinese laborers, epitomizes the early record on 
immigration from Asia\1\ 1907, anti-Asian sentiment culminated in the 
Gentleman's Agreement limiting Japanese immigration,\2\ Asian 
immigration was further restricted by the Immigration Act of 1917 which 
banned immigration from almost all countries in the Asia-Pacific region 
\3\; the Quota Law of 1921 which limited the annual immigration of a 
given nationality to three percent of the number of such persons 
residing in the United States as of 1910 \4\; and the National Origins 
Act of 1924, which banned immigration of persons who were ineligible 
for citizenship,\5\ decade later, the Tydings-McDuffie Act of 1934 
placed a quota of 50 Filipino immigrants per year.
---------------------------------------------------------------------------
    \1\ Civil Rights Issues Facing Asian Americans in the 1990s, U.S. 
Commission on Civil Rights, p. 7 (1992).
    \2\ U.S. Dept. of State, Paper Relating to the Foreign Relations of 
the United States 1924 (1939), Vol.2, p. 339. See Higham, American 
Immigration Policy in Historical Perspective, 21 Law and Contemp. 
Probls. 213, 227 (1956).
    \3\ Act of Feb. 5, 1917, 39 Stat. 874.
    \4\ This quota limited non-European immigration. For example, Great 
Britain with two percent of the world's population had 43% of the 
quota. National Lawyers Guild, Immigration Law and Defense, p.2-4.
    \5\ At the time, only immigrants from Asia were ineligible for 
citizenship solely on the basis of race. See Ozawa v. U.S., 260 U.S. 
178 (1922).
---------------------------------------------------------------------------
    It has been just over a generation since the Chinese Exclusion Act 
and its draft: April 41'' Testimony before the Senate Immigration 
Subcommittee progeny were repealed in 1943.\6\ Yet after the repeal, 
discriminatory quotas were nevertheless set using formulas giving 
special preference to immigration from Europe. Until 1965, for example, 
the German annual quota was almost 26,000 and the Irish almost 18,000 
while the annual quota from China was 105, for Japan was 185, the 
Philippines was 100 and the Pacific Islands was 100.\7\
---------------------------------------------------------------------------
    \6\ Ch. 344, 57 Stat. 600 (1943).
    \7\ Id.
---------------------------------------------------------------------------
    The intensity of the discrimination against immigrants from Asia is 
reflected in the fact that they were ineligible to become naturalized 
citizens for over 160 years. A 1790 law allowed only ``free white 
persons'' to become citizens. Even after the law was changed to include 
African Americans, similar legislation to include Asian Americans was 
rejected.\8\ The Supreme Court upheld the laws making Asian immigrants 
ineligible for citizenship.\9\ The last of these laws were not repealed 
until 1952.\10\
---------------------------------------------------------------------------
    \8\ P. Chew, William and Mary Law Review, Asian Americans: The 
'Reticent ``Minority and Their Paradoxes, p.13 (1995).
    \9\ See Ozawa v. U.S., 260 U.S. 178 (1922); U.S. v. Bhagat Singh 
Thind, 261 U.S. 197 (1923); and In re Ah Yup, 1 F. Cas. 223 (Cir. Ct. 
D. Cal. 1878).
    \10\ H. Kim, Ed., Asian American History, Asian Americans and 
American Immigration Law by T. Knoll, pp.52-3 (1986).
---------------------------------------------------------------------------
                         b. immigration reforms
    Congress sought to eliminate most of the racial barriers imbedded 
in the immigration system with the passage of the Immigration and 
Naturalization Act of 1965. Unfortunately the Act did not address the 
effect of earlier biases. In fact, the 20,000 per country limit, 
imposed without any connection to size of originating country or 
demand, resulted in extremely long waiting lists for Asian 
immigrant.\11\
---------------------------------------------------------------------------
    \11\ H. Kim, Ed., Asian Americans and the Supreme Court, Asian 
Americans and Present U.S. Immigration Policies, A Legacy of Exclusion, 
by W. Tamayo, p. 1112-1113 (1992).
---------------------------------------------------------------------------
    The Immigration Act of 1990 also failed to address the tremendous 
backlogs that already existed for countries like Mexico, India, the 
Philippines, South Korea, China and Hong Kong. Instead, the problem was 
exacerbated with the reduction in number of visas available for adult 
sons and daughters of United States citizens. At the time the backlog 
consisted primarily of children of Filipino veterans who are allowed to 
naturalize under the Act because of their service to this country in 
fighting as a part of United States Armed Forces in World War II. 
Despite this fact, the quota was cut in half and other family 
categories were reduced, causing the backlog to increase by close to 70 
percent.\12\
---------------------------------------------------------------------------
    \12\ Id. At pp. 1120-1121; Sec. 405 of the Immigration Act of 1990, 
Nov. 19, 1990, Pub. L. No. 101-649, 104 Stat. 4978.
---------------------------------------------------------------------------
    As a result, although Asians have constituted over 30 percent of 
the country's immigration for the past two decades, the community still 
makes up less than 4 percent of the United States population. Most 
recent numbers indicate that well over 1.6 million Asian immigrants 
were still waiting in backlogs for entry visas to reunite with their 
families. Over 45.7 percent of immigrants waiting to join their loved 
ones in the United States are from Asian countries. Thus any additional 
restrictions or reduction in the overall numbers, particularly in the 
family preference categories, will have an inordinate impact on Asian 
Pacific American families.
  II. Family Reunification as the Foundation of Our Immigration System
    Family-based immigration has rightly been the cornerstone of United 
States Immigration policy for decades. Well over 90 percent of Asian 
immigration comes through the kinship categories.\13\ Families are the 
backbone of our country and their unity promotes the stability, health, 
and productivity of family members contributing to the economic and 
social welfare of the United States.
---------------------------------------------------------------------------
    \13\ Hing, Bill Ong. Easing the Backlogs for Family Immigration: 
Doing the Right Thing.
---------------------------------------------------------------------------
    Immigrants who have entered the United States through the family 
reunification process as adult children, or brothers and sisters of 
United States citizens include countless individuals who have 
contributed to the productivity of our workforce, filled economic needs 
and served honorably in our Armed Forces. In addition, family 
reunification policies have direct impact on the ability of American 
businesses to attract skilled international personnel to compete in the 
global market. In large part the success of recruitment efforts depends 
on the ability of employees to consolidate their family members in the 
United States. The ability of refugees and asylees to become 
emotionally and economically stable and socially integrated into 
society also increases when their family members are able to join them, 
decreasing emotional distress and expanding the pool of resources that 
can be shared.
    For example, take the case of Ming Liu, a design engineer for a 
United States telephone and electronic equipment company from China. 
Liu was more than meeting his employer's expectations and his boss was 
pleased with his hard work. But he became a much better worker after 
his wife and child rejoined him in Fremont, California after a two-year 
immigration process. Liu's productivity skyrocketed and his boss noted 
that Liu not only was a better worker, but that he opened up at work 
socially as well. Liu ultimately came up with a new and innovative 
concept that helped the company change direction and increase sales. 
Liu's own words were that the arrival of his family allowed him to 
``breathe again.'' \14\
---------------------------------------------------------------------------
    \14\ Id.
---------------------------------------------------------------------------
    Even beyond the obvious psychological benefit of reuniting 
immigrants with their families, and the inherent value of close knit 
family in our own traditions, studies have shown that the policy has a 
marked impact on the country's entrepreneurship. A recent study found 
``indeed, the impressive figures on Asian Pacific entrepreneurs. . 
.have resulted from the current mostly family-based, immigration 
system.'' \15\
---------------------------------------------------------------------------
    \15\ Ghosh, Shubha. ``Understanding Immigrant Entrepreneurs: 
Theoretical and Empirical Issues,'' Reframing the Immigration Debate. 
Edited by Bill Ong Hing and Ronald Lee: LEAP Asian Pacific American 
Public Policy Institute and the UCLA Asian American Studies Center 
1996.
---------------------------------------------------------------------------
    In Asian Pacific American families, adult children often work 
together to take care of aging parents and brother and sisters pool 
resources to send nieces and nephews to college, open family 
businesses, buy homes or take care of each other in times of distress.
    Arguments by some anti-immigrant proponents have suggested that 
cuts in family immigration are justified by lower immigrant quality. 
But these propositions overlook the facts. According to a study by the 
Alexis de Tocqueville Institution, the education levels of immigrants 
have been improving not declining. Mean numbers of years of schooling 
have continuously increased; the proportion of new immigrants with less 
than an eighth-grade education has be steadily declining and the 
population with a college degree or more has actually risen.\16\ terms 
of labor markets, analysts note that where immigrants have moved in, 
the unemployment rate has actually dropped.\17\
---------------------------------------------------------------------------
    \16\ The Alexis de Tocqueville Institution, The Truth About 
Immigrant ``Quality, ``at p.12 (April 1995).
    \17\ Park, Edward Jang-Woo. ``Asians Matter: Asian American 
Entrepreneurs in the Silicon Valley High Technology Industry.'' 
Reframing the Immigration Debate. Edited by Bill Ong Hing and Ronald 
Lee: LEAP Asian Pacific American Public Policy Institute and the UCLA 
Asian American Studies Center: 1996.
---------------------------------------------------------------------------
                 III. Contributions of Asian Immigrants
    As mentioned earlier, over 90 percent of Asians immigrate to this 
country through the family categories. The people who come in as 
spouses, adult children, and siblings are generally in prime of their 
working lives. The median age of a legal immigrant is 29 years old.\18\ 
And over 59 percent of new immigrants fall within the ages of 15 and 44 
years of age.\19\ This youth translates into a strong incentive and 
ability to create and produce, and it manifests itself in our nation's 
economy and community.
---------------------------------------------------------------------------
    \18\ U.S. Dept. of Justice, Immigration and Naturalization Service, 
``Legal Immigration, Fiscal Year 1998,'' July 1999.
    \19\ Id.
---------------------------------------------------------------------------
                      a. small business ownership
    Asian immigrants have dramatically increased their presence in 
small business. Some academics suggest this is a means to overcoming 
language and other barriers to the mainstream economy, whereas others 
have focused on explaining why Asian-Americans might fare better in the 
changing economic environment of the United States. Regardless of the 
reasons, Asian Pacific Americans have increased their presence in this 
sector tremendously. Between 1982 and 1987 there was an 89.3 percent 
increase in Asian-owned businesses.\20\ The number of Asian-owned 
businesses in the United States grew 180 percent between 1987 and 1997, 
and during the same period there was a 463 percent increase in Asian-
American business sales and receipt.\21\ The importance of these 
numbers is in the understanding that the value of these undertakings is 
transferred to the communities, not simply to the immigrant 
entrepreneurs themselves:
---------------------------------------------------------------------------
    \20\ Ghosh at 131.
    \21\ Securities Industry Association. Asian American Markets. 
Available at http://www.sia.con/diversity/html/asian-american.html.

Asian immigrant entrepreneurship, especially in ethnic enclave 
        economies, has injected long-neglected inner-cities and sleepy 
        suburban communities with much needed capital investment, 
        neighborhood revitalization, and increased commercial activity. 
        . .These sociologists point out that a substantial percentage 
        of benefits, such as job creation, business services, linkages 
        to international capital and markets, and generation of sales 
        and property tax revenues, go beyond ethnic boundaries and 
---------------------------------------------------------------------------
        enrich the broader public.\22\

    \22\ Park at 157.
---------------------------------------------------------------------------
         b. the revitalization of the los angeles toy industry
    Asian immigrants, like immigrants in general, have moved in to 
revive business in long-neglected urban areas. For instance when they 
moved in to transform the previously dilapidated area in Los Angeles 
and helped pick up a now thriving industry, Los Angeles became the main 
thoroughfare for the toy industry. More than 60 percent of the toys now 
sold in United States retail store distributed from the California 
city, making it the nation's top toy distribution center.\23\ The 
district was developed by a handful of Asian immigrants who transformed 
a derelict downtown neighborhood into a successful business district 
that employs more than 6,000 people and generates estimated total 
revenues of $500 million annually.\24\
---------------------------------------------------------------------------
    \23\ Linda Griego, ``Rebuilding L.A.'s Urban Communities,'' Final 
Report of RLA, Milken Institute, 1997.
    \24\ Id.
---------------------------------------------------------------------------
              c. silicon valley and the high-tech industry
    The high tech industry in Silicon Valley is another good example of 
what Asian immigrants can bring the country. The Valley is home to the 
world's leading technology firms, and is a well-suited example since 
observers note that: ``much of the industry's transformation into its 
contemporary form coincided with massive Asian Pacific immigration into 
the United States and California.'' Asian Pacific Americans provide 
nearly half the area's manufacturing labor force, and 25 percent of the 
total workforce. According to to Public Policy Institute of California, 
one out of every four Silicon Valley CEOs is Asian.\25\ In individual 
firms they may range from 20 percent to 80 percent of the company's 
engineers. One computer industry analyst put it this way: ``The United 
States would not be remotely dominant in high-technology industries 
without immigrants. We are now utterly dominant in all key information 
domains. And at every high-tech company in America, the crucial 
players, half of them or more, are immigrants.'' \26\
---------------------------------------------------------------------------
    \25\ 25. Yang, Jeff & Yang, Nelson. aNote. A. Magazine, January 31, 
2001.
    \26\ Erasmus, Melanie. ``Immigrant Entrepreneurs in the High Tech 
Industry,'' Reframing the Immigration Debate Edited by Bill Ong Hing 
and Ronald Lee: LEAP Asian Pacific American Public Policy Institute and 
the UCLA Asian American Studies Center: 1996.
---------------------------------------------------------------------------
           IV. Policy Recommendations for the 107th Congress.
          1. family-based immigration: clearing the backlogs.
    The unreasonably long family backlogs continue to obstruct the 
reunification of families. As of January 1997, the last period for 
which the Immigration and Naturalization Service (``INS '') released a 
report, over 3.5 million spouses, children, brothers and sisters were 
waiting to reunite with their relatives in the United States. Of this 
number, over 1 million are spouses and minor children waiting to 
reunite with legal permanent residents in the United States, more than 
500,000 are adult children of legal permanent residents waiting to 
reunite with their legal permanent resident parents, and over 400,000 
are adult children are waiting to be with their citizen parents. 1.5 
million are the brothers and sisters waiting to reunite with their 
citizen siblings. The situation disproportionately impacts Asian 
Americans, since 1.6 million of the 3.5 million people waiting, 45.7 
percent, are from Asian countries.
    The system not only has implications for those families, but is 
beginning to break down the current system of family-based immigration. 
For Filipino Americans, the waiting time for citizens petitioning for 
adult unmarried children is longer than for that of legal permanent 
residents, which means that there is a disincentive for immigrants from 
the Philippines to naturalize and become citizens. The waiting time for 
citizens from the Philippines is now 12 years versus 2 years for other 
countries.
    The waiting time is now so long that many children will become 21 
years of age while their parents wait to unite with their parents or 
siblings. The families must then make the hard decision of leaving 
behind their adult children to be put at the end of an even longer line 
for adult children. That waiting time is now 4 years for spouses and 
minor children from most countries versus 7 years for adult children of 
legal permanent residents.
    The adult children of many United States citizens face a cruel 
choice. If they want to marry before being able to immigrate to reunite 
with their parents, they will move to the back of an even longer line 
for adult married children. The waiting time is now 13 years for adult 
married children of citizens originally from the Philippines versus 5 
years for unmarried adult children from most other countries. The 
waiting time for brothers and sisters ranges from 12 years for most 
countries to 21 years for siblings from the Philippines because of the 
per country immigration caps.
    Last year Congress began to acknowledge the predicament of 
permanent legal residents in bringing their spouses and children to be 
with them. The ``V'' visa created by the ``Legal Immigrant and Family 
Equity Act of 2000'' is a new nonimmigrant visa category for spouses 
and children of permanent residents who have been waiting at least 3 
years for their green card. The ``V'' visa allows them to enter the 
United States and obtain work authorization while waiting for their 
application determination.
    While a good first step, the relief provided by this visa is 
limited, as it issues only temporary relief to a problem that is 
actually much more pervasive. The ``V'' visa program is valid for only 
3 years. Further, the spouse is only eligible after they have waited 
three long years to be with their legal permanent resident husband or 
wife. Working out a thoughtful solution to the backlog problem is 
crucial to solving the challenges of the current immigration system. 
The family backlog seriously undermines the values and successes of 
immigrant families. NAPALC urges the Subcommittee to hold hearings on 
the issue and develop a solution that will help reunite families in a 
more timely and humane schedule.
                    2. employment-based immigration
    NAPALC supports employment-based immigration if it meets a strongly 
articulated need by our economy, employers invest in increasing the 
ability of Americans to fulfill their needs in the long term, and the 
system provides a means of adjustment for the worker, so that if the 
visa holder so desires he or she may eventually adjust to permanent 
residency. Currently over half of all H1-B visas for high-tech workers 
are being issued to Asian immigrant.\27\ The 106th Congress passed the 
American Competitiveness in the 21<SUP>st</SUP> Century Act (P.L. 106-
313) in October 2000. NAPALC supported that legislation, and worked 
with members of Congress and the Clinton Administration to ensure that 
the system would function effectively for both companies and their 
recruits. The bill was signed into law and increased the cap on H-1B 
visas to 195,000 for the next three fiscal years. It also increased the 
ability of H-1B professionals to change employers once they are in the 
United States, increased the fee employers must pay to educate and 
train United States workers in technology occupations to $1000, and 
made changes to prevent INS delays from hurting H-1B professionals who 
are applying for green cards. This option is critical to ensuring that 
those who invest their talents in this country are able to put down 
roots in their adopted country, if they so choose.
---------------------------------------------------------------------------
    \27\ Yang, Jeff & Yang, Nelson. ``aNote.'' A. Magazine, January 31, 
2001.
---------------------------------------------------------------------------
    A recent United States Department of Labor (``DOL '') Interim Rule, 
however, has had the effect of frustrating Congressional intent of 
providing these workers with the ability to move quickly to a new 
employer when new employer files a Labor Condition Application to the 
INS and the INS then sends a notice of receipt. The DOL Rule prevents 
the H1-B visa holder from changing employers until the Department of 
Labor certifies the Labor Condition Application and returns it to the 
new employer. The intent was to allow H1-B employees to begin work for 
the new employer once the INS received copies of the filed application. 
The Department of Labor Rule now puts the visa holders in the same 
vulnerable position that the ``portability'' provision had been trying 
to avoid, and essentially usurps the intent of this provision. We ask 
that the Subcommittee investigate the effects of this recent rule, and 
support efforts to revise the regulation.
                      3. asylee and refugee issues
    The United States has a long tradition of taking in those persons 
who flee their country in the face of persecution based on race, 
religion, nationality, social group, political opinion, or armed 
conflict. NAPALC believes that our nation is particularly obligated 
though, to the Southeast-Asian refugees who face persecution in their 
home countries for supporting the United States Armed Forces during the 
Vietnam War.
    The Fiscal Year 2001 Foreign Operations, Export, Financing, and 
Related Programs Appropriations Act, signed by the President in 
November, included an amendment that will allow certain persons from 
Southeast Asia, who have been in the United States in a temporary 
status since the early 1990's, to become permanent residents. While 
many Southeast-Asians have been resettled here as refugees, some (most 
with family members already in the United States) were admitted as 
``Public Interest Parolees.'' Because parolees, unlike refugees, cannot 
adjust to permanent residence after a year in the United States these 
individuals are in limbo until an immigrant visa becomes available 
through a family sponsor. This is a process that can take many years 
depending on the category of family visa for which the person is 
eligible. The new law allows them to adjust their status without 
waiting for their family immigrant visa to become available.
    There are, however, approximately 15,000 to 20,000 potential 
beneficiaries of this law. The provision passed last session mandates a 
ceiling of 5,000 persons who will be able to adjust to permanent 
residence under this provision of law. Congress appears to have 
contemplated revisiting this issue as the ceiling was applied in the 
last hours of passing the bill.
    Regulations specifying the application procedure have not yet been 
published, and the INS issued instructions to their field office in 
January to return any paperwork thus far received. NAPALC is concerned 
both with the amount of time that it is taking the INS to issue 
regulations and with the restrictive cap that was placed at the last 
minute on this provision. We urge the Subcommittee to review this issue 
and support legislation increasing the number of visas available under 
this adjustment provision to match the number of individuals who would 
remain vulnerable and unable to adjust to permanent citizenship within 
a reasonable amount of time without this law. We also urge the 
Subcommittee to press the INS to develop regulations that fit the 
intent of Congress to favorably resolve this long outstanding issue as 
quickly as possible.
                            4. ins services
    The INS continues to be one of the most dysfunctional federal 
agencies. Problems at the agency, complex legislation and inadequate 
appropriations for INS services consistently result in poor service and 
unreasonable waiting periods for even consumer-paid services. NAPALC is 
very concerned about backlogs in INS processing of citizenship and 
other applications. The agency often is unable to produce regulation 
and set up produce regulations and procedures on a timely basis even 
where new legislation provides extremely short deadlines. Existing 
services fall behind as INS is forced to shift priorities to address 
outrageous backlogs in various programs or process new programs.
a. Citizenship
    Given the changes in the immigration laws in 1996, the need for 
addressing the large numbers of legal immigrants waiting in line to be 
naturalized becomes all the more critical to address. The 1996 Illegal 
Immigration Reform and Immigrant Responsibility Act of 1996 (IIRAIRA) 
and the Anti-Terrorism and Effective Death Penalty Act (AEDPA) left 
these immigrants particularly vulnerable as their access to basic 
judicial review and certain government services was severely curtailed. 
It is thus all the more imperative that the INS's services be improved. 
Application fees have increased dramatically in recent years without a 
commensurate increase in the INS's ability to process and adjudicate 
these cases in an efficient manner.
    Based on surveys NAPALC has collected from community-based 
organizations across the country that serve Asian Pacific American 
clients, our conclusion is that INS has clearly failed in its function 
and mission to deliver adequate services to its customers. For 
instance, a Denver, Colorado community group reported to us that 
processing green card and citizenship applications was taking INS about 
2 years. A St. Paul, Minnesota community organization reported to us 
that it was taking an average of 1 and \1/2\ for INS to process a 
naturalization application, which makes it difficult for many of their 
elderly clients to retain what they have learned for the civics test.
    Finally, we applaud the efforts of the Congress in the 1061'' 
Session in addressing the barriers faced by the Among Community, who 
allied themselves with the United States Armed Forces during the 
Vietnam War. By passing Among Citizenship Act of 2000 in May of 2000, 
Congress allowed certain individuals to waive the English fluency 
requirement and take a modified Civics examination for their 
naturalization process. The Among population numbers in the 200,000 
range, and the Among Citizenship Act waives the requirements for up to 
45,000 individuals who meet the conditions of the law.
    To be eligible, Among veterans must have served with a special 
guerrilla unit or irregular forces operating from Laos in support of 
the United States Armed Forces any time between February 28, 1961, and 
September 18, 1978. Applicants have a period of 18 months to file for 
citizenship. However, reports as late as September 200 in indicated 
that the INS was still turning eligible people away, claiming no 
knowledge of the law.\28\ Thus we anticipate the period of time in 
which Among Veterans can apply for the waiver will probably need to be 
extended. We urge the Subcommittee to solicit a report from the INS as 
to their progress and the number of people that have been processed 
through the provisions of this law, and to hold a hearing where the 
subcommittee invites input from members of the Among community who can 
report directly on their experiences in applying for the waiver with 
the INS.
---------------------------------------------------------------------------
    \28\ Doyle, Michael. ``Among Citizenship Problems Arise: New Law's 
Limitations Stir Controversy and Confusion.'' Sacramento Bee, September 
13, 2000.
---------------------------------------------------------------------------
b. INS Reorganization
    Customers experience INS as a large, confusing, inaccessible 
bureaucracy. It is difficult, if not impossible for them to gain access 
to workers and information. Communications between INS and clients are 
often one-way. Unless INS sends a letter or makes a phone call to the 
client, it is virtually impossible for the client to initiate 
communications with INS if they need assistance or questions answered. 
There is an overall lack of responsiveness to applicants, particularly 
those who do not have community organizations or elected officials 
working on their behalf. Consistent reports have been received from all 
parts of the country that INS workers often treat customers with lack 
of respect and hostility, particularly those who do not speak English 
well, are elderly, have disabilities, or are low-income. Notices are 
generally not provided in Asian Languages and customers are expected to 
bring their own translations, when necessary. Feedback received from 
the community clearly indicates an overall lack of understanding and 
concern for the unique cultural and linguistic needs of clients by many 
INS workers.
    National policies established at headquarters are often not 
adequately communicated to staff at the local level, which has resulted 
in inconsistent and erroneous implementation of laws and policies by 
local INS employees. Local workers also sometimes take the initiative 
in instituting extreme actions which have not come from any national 
directive and which clearly violate the law, particularly around 
enforcement. Also, there are problems with inconsistent and inaccurate 
information being given to clients.
    In response to increased inefficiencies, problems and failings 
within INS, particularly around the processing of naturalization 
applications, several proposals have been introduced. How INS is 
ultimately reorganized will have a tremendous impact on the ability of 
immigrants to naturalize, as well as on their ability to seek out a 
range of services related to their applications for green cards, work 
authorization, and family sponsorship.
    We support the general premise around which all of the proposals 
are based, that INS is indeed an agency plagued by inefficiencies, 
failings and problems, and is in desperate need of change to 
drastically improve its ability to fulfill its functions in both areas 
of services and enforcement. We feel however, that the ultimate 
proposal must recognize that adequate funding must be ensured to 
improve the overall delivery of services, particularly in the area of 
naturalization and green card processing, and that these services are 
not sacrificed in any reorganization proposals.
    A complete separation of services and enforcement into two separate 
and distinct agencies could leave services without adequate funding, 
accountability and comprehensive and consistent policy development. 
However, the two functions might be clearly separated into divisions if 
they remain under the roof of one agency. Clear separation of functions 
between services and enforcement will lead to greater improvements in 
both areas by strengthening chains of command, improving communications 
and accountability, enhancing training and skill development, and 
streamlining procedures. Any plan to reorganize INS must be the result 
of a well thought-out process. Legislation should not be supported if 
it does not include adequate appropriations. We are thus opposed to a 
proposal, H.R. 2528 (``Immigration Reorganization and Improvement Act 
''), introduced last session in the United States House of 
Representatives by Representatives Rogers, Reyes and Smith. This 
proposal separated the enforcement and service aspects, but failed to 
provide the reorganized agency with an agency head that would have 
significant authority. The bill neglected to provide a coordinating 
mechanism and similarly included no means to resolving conflicting 
policy between the two service and enforcement branches. The bill also 
failed to cover the costs of reorganization and did not provide any 
means to assuring that the current state of inadequate service levels, 
would at all improve. In contrast, the Senate Bill on the same subject, 
5.1563, (``INS Reform and Border Security Act '') addressed many of 
these questions. We urge the Subcommittee to hold hearings, make a 
comprehensive study that includes a realistic assessment of the costs, 
and seeks input from a wide range of stakeholders.
5. restoration of basic due process rights of legal permanent residents
    NAPALC also remains deeply concerned with the basic due process 
rights that were eroded in the 1996 Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996 (17RAIRA) and the Anti-Terrorism 
and Effective Death Penalty Act (AEDPA). The effects of the 1996 laws 
are devastating and far-reaching. AEDPA and IIRAIRA were enacted to 
curtail illegal immigration and to keep criminal aliens from entering 
and remaining in the United States. Their enactment however, has had 
tremendous impact on the lives and families of those detained. Often 
times, the detained immigrants are the primary income-earners for their 
households, causing families to suffer both emotional trauma and 
financial hardship. 75 percent of children in the United States are 
from families with at least one non-citizen parent, and thus could be 
gravely impacted by the 1996 laws if their non-citizen parent were ever 
found deportable.
    With its large non-citizen immigrant population, the Asian-American 
community is particularly susceptible to the harsh provisions of the 
1996 laws. Over 40 percent of Korean, Asian-Indian, and Vietnamese 
communities are not yet citizens. And well over half of Cambodian, 
Laotian, Among, and Thai communities are not yet-naturalized 
immigrants.
    Some of the laws' more extreme provisions mandate the detention and 
deportation of legal immigrants who may have committed crimes in their 
past, however minor and however long ago. The far-reaching effects of 
these laws have been to tear longtime legal permanent residents away 
from their jobs, businesses, families, and United States citizen 
children for minor offenses they committed decades prior to the 
enactment of the 1996 laws. Legal immigrants have been stripped of 
their ability to demonstrate to a judge the changed circumstances of 
their lives, and the hardship that deportation would create for 
themselves and their families. Ironically, some of the very individuals 
and their children who were admitted to the United States as refugees 
from Southeast Asia are now being threatened with return to the very 
regimes that persecuted them. For immigrants that cannot be repatriated 
to home countries such as Laos and Vietnam for political reasons, the 
laws have effectively resulted in life sentences behind bars, unable to 
provide for their families or contribute to their community.
    The 1996 laws changed the standards for what makes a legal 
permanent resident deportable. It expanded the definition of an 
aggravated felony, a deportable offense, to over 30 crimes including 
some which are considered only misdemeanors under state law. The new 
definition also includes crimes where the conviction was expunged or 
the sentence was completely suspended. The INS applied this new 
definition retroactively to crimes committed even before the 1996 law, 
regardless of how far back the crime was committed.
    In addition, the 1996 laws took away the right of legal immigrants 
to prove to the immigration judge that they have been rehabilitated, 
that they have lived in the United States for a long time, and that 
their departure would create hardship for themselves or their family 
members. Individuals no longer have the ability to demonstrate to a 
judge the circumstances of their home country that might place them in 
jeopardy if they were to go back. This is particularly problematic for 
those individuals who fled repressive regimes and entered the United 
States as refugees. Immigration judges no longer have the discretion to 
grant immigrants relief from deportation.
    The 1996 laws require the INS to detain certain immigrants while 
they await their deportation hearing, stripping immigrants of their 
right to a bond hearing. In the past, an individual who could show that 
she or he was not a flight risk or threat to public safety was released 
on bond.
    As the 5<SUP>th</SUP> anniversary of these laws approaches, the 
1996 laws toll on the immigrant communities continues. NAPALC urges the 
committee to restore the constitutional guarantee of judicial review, 
restore basic fairness by repealing the retroactive application of the 
1996 laws and establish a fair definition of crimes that lead to 
detention deportation. A limited bill, supported by Representative 
Lamar Smith that would have just begun to ameliorate the harsh 
injustices upon permanent legal residents passed unanimously in the 
United States House of Representatives last year (H.R. 5062). Senator 
Kennedy and Senator Graham introduced a more comprehensive proposal (S. 
3120). We urge the Subcommittee to hold hearings on this issue and to 
act on legislation that would ameliorate the provisions that are overly 
harsh and violate our country's sense of fairness and commitment to due 
process.
                           6. ins enforcement
    NAPALC supports both the business and labor coalitions which have 
called for the repeal of employer sanctions. We believe the sanctions 
should be repealed as a failed policy, which has resulted in the 
discriminatory practices by employers against minority employees.
    Reports indicate that in certain districts the INS has been 
targeting minority business owners for enforcement actions.\29\ Last 
year the INS targeted Asian-Indian computer software engineers working 
at an Air Force base in San Antonio Texas. Forty computer software 
engineers were arrested and detained along with their family members 
for alleged violations of their visas, but were later all released 
without further action. In Dallas, Texas, a report emerged that INS 
officers had targeted Asian business-owners by photocopying yellow 
pages listings of Indian and Pakistani restaurants. NAPALC and its 
affiliates find such practices raise concerns of grave violations of 
the civil rights of these businessmen. We urge the Subcommittee to 
review the issue of enforcement by the INS and consider legislation 
that would repeal employer sanctions.
---------------------------------------------------------------------------
    \29\ Bensman, Todd. ``INS Targeted Indians and Pakistanis in Dallas 
Sweep,'' Dallas Morning News. October 29, 2000.
---------------------------------------------------------------------------
     7. finding a means of adjustment for the growing undocumented 
                               immigrants
    NAPALC remains concerned with the need to find a broad-based means 
of adjustment, particularly in light of the initial numbers emerging 
from Census 2000 which indicate a higher than anticipated level of 
undocumented immigrants. The INS has tried many means and approaches to 
block the flow of immigrants who enter the country without legal 
documents, or overstay their permission to reside here. But it is 
apparent that the people who have wanted desperately to enter this 
country, have been able to continue to enter and remain. It is in the 
nation's own interest to provide them with a means to adjust, so that 
they can step out of the shadows and become contributing members of our 
communities and participating in the welfare of the nation as a whole.
    We believe that an increase in the number of adjustment of status 
opportunities and a reform of the employment-based categories, combined 
with a reduction in the family backlog, will produce a wide 
distribution of available workers and will present an immediate 
infusion of labor which economists such as Federal Reserve Board 
Chairman Alan Greenspan has indicated we need. One potential means of 
addressing the issue would be to adopt a rolling registry date, which 
would act as a statute of limitations. Such a provision would 
acknowledge the contributions these individuals have made to our 
economy as well as the roots that they have grounded with their years 
in the United States. We urge the Subcommittee to explore solutions to 
this problem by holding hearings and closely examining proposals that 
are currently being introduced in Congress.
    Mr. Chairman and Members of the Subcommittee, thank you for giving 
NAPALC the opportunity to make these recommendations. We look forward 
to working with you.

    Chairman Brownback. Thank you very much.
    Finally, Ms. Dickson, thank you very much for joining the 
Subcommittee. We look forward to your testimony.

    STATEMENT OF ELIZABETH C. DICKSON, MANAGER, IMMIGRATION 
 SERVICES, INGERSOLL-RAND COMPANY, AND CHAIR, SUBCOMMITTEE ON 
  IMMIGRATION, U.S. CHAMBER OF COMMERCE, WOODCLIFF LAKE, NEW 
                             JERSEY

    Ms. Dickson. Thank you for having me. I am Elizabeth 
Dickson and I manage the immigration function for Ingersoll-
Rand Company, and for the past year I have also been the Chair 
of the U.S. Chamber of Commerce Subcommittee on Immigration. I 
really appreciate the opportunity to share some of my 
experiences with a large manufacturing company dealing with 
finding workers that we need.
    I am actually the point of contact for human resource 
managers throughout the United States when they have tried to 
fill a position with a U.S. worker and cannot find a worker for 
it and then come to me saying we need to bring somebody in. 
Frequently, I have to turn around and say to them, I am sorry, 
we can't bring them in, because there are very limited 
categories and ability to bring in people unless they are 
highly skilled professionals.
    This tight labor market that we have now has really got 
companies like Ingersoll-Rand scrambling for much-needed 
workers. Ingersoll-Rand is a Fortune 200 company. We employ 
over 50,000 people worldwide and we have 30,000 employees in 
the United States. Last year, our annual sales were $8.6 
billion.
    We have always prided ourselves on being an American 
manufacturing company, and we have manufacturing facilities 
located in 21 States in the United States. Forty percent of our 
revenues come from export business, and we have really tried to 
keep the work in the United States as much as possible.
    However, we have had a lot of difficulty identifying and 
retaining U.S. workers across a large spectrum of skill levels. 
My testimony goes into greater detail, but I would like to just 
highlight for you some of the worker shortages that we have 
experienced.
    Chairman Brownback. Please.
    Ms. Dickson. Welders are one of the semi-skilled employees 
that are not considered professionals. It is a skill set that 
involves a certain amount of training to be able to perform the 
job competently. We have a large need for these types of 
workers in the rotary drill manufacturing and the road 
machinery division, and we have recruited through many means in 
the United States, using employment agencies, going to 
shipyards, military installations where we thought we could 
find these types of workers, to no avail. When we did identify 
skilled welders in Mexico, we were unable to bring them into 
the country because there really was not an appropriate and 
easy visa category we could use for them.
    Right now, my Air Solutions Group is having a real shortage 
of service technicians, and again we have employees who are 
service technicians at our I-R Canada facility who could come 
into the United States and be able to perform this work at 
customer sites.
    Because the equipment is manufactured in the United States, 
these workers would require work permits to come in. Even under 
Trade NAFTA, a service technician is not able to work 
independently at a customer site unless they are under the 
supervision of an engineer. So, again, we cannot fulfill the 
needs of our customers right now when we can see a solution 
that would not be too difficult.
    Some of the other difficulties that manufacturing companies 
such as ours have are tool and dye workers and precision 
machinists. Both of those occupations have been shortage 
occupations for many, many years. We are having difficulty 
finding electricians. Electricians are very similar to welders. 
They are not professionals, but it is a skilled occupation that 
requires a certain amount of training and apprenticeship. 
Again, we have sometimes been able to identify electricians in 
other countries and been unable to bring them in.
    Obviously, a big manufacturing company such as Ingersoll-
Rand is very dependent on engineers. Engineering is one of the 
fields that we find that the INS and the Department of Labor 
don't even understand how complex engineering skills are now, 
and that there are a variety of different engineers that are 
very, very specialized.
    Metrologists are very specialized quality control 
engineers. Only five universities in the United States even 
train metrologists and have these programs. When my recruiters 
go out and try to hire these people, they find that almost 
everyone in the class is a foreign national.
    We had a 20-month search for a robotics engineer at our 
Baxter Springs, Kansas, facility. Metallurgical engineers have 
been shortage occupations for many years. Our Thermo King 
climate control area had a 13-month search for a plastics 
engineer. We finally found someone from Canada.
    I think during the H-1B debate the IT shortages were 
clearly defined to everybody, but this is an area that is not 
going to go away. And it is not only professional programmers 
and software engineers who are covered under the H-1B program, 
but also the technicians and people that are in the help desk 
function and the technical support function that we would like 
to see.
    With the information technology area, too, we do seem to 
see a skills gap. When we are really looking for programmers 
and software engineers who have Web-based application, Oracle 
experience, and stuff like that, our schools in America are 
just starting to teach that. A lot of these applications have 
been developed in India and other countries and those are the 
people we are trying to get. If we can only bring them in for 
very short periods of time as a non-immigrant, then you are 
going to have a turnover in that high-tech area which is very 
costly to business.
    I think we have seen that we continue to need workers of 
all skill levels. Through the U.S. Chamber of Commerce and in 
coalition with a lot of other businesses and trade 
associations, we are looking to solve these worker shortages at 
all levels. That is why we have supported some of the programs 
that have been presented through the Essential Workers 
Immigration Coalition to try to find a workable solution for 
the shortage of workers who have less than a bachelor's degree, 
and in my testimony I included some information from that.
    Like my colleague from PricewaterhouseCoopers, spousal work 
authorization is something that the Chamber of Commerce 
supports. We too see real difficulty transferring people when 
there are dual-career couples, and there are certainly other 
countries that Americans can go to, the UK, and the spouses can 
work. It is hard to explain to somebody from Britain that their 
spouse cannot work in the United States. The lack of sufficient 
immigrant visas is certainly another area of concern for us.
    As far as the agencies go, we are really concerned with the 
increasing processing times at both the Department of Labor and 
the Immigration and Naturalization Service. I think Warren 
spoke about that, and also the processing times are very, very 
difficult to contend with.
    Another area that I have found to be very troublesome is 
the lack of regulations. Congress passes certain laws and they 
become effective, and we may wait 3 or 4 years down the road to 
actually get regulations to implement it. This is very 
confusing for companies who are really trying to abide by the 
letter of the law and we don't have regulations.
    In truth, the agencies sometimes disagree on how these laws 
are going to be interpreted. The Department of Labor will say 
one thing about certified LCAs and the INS will say another. So 
I think going down the road, it would be wonderful if the 
Subcommittee could look at these agencies working more closely 
together, and also having some accountability for getting 
regulations out in a timely fashion, as well as processing 
times.
    Chairman Brownback. Ms. Dickson, if I could cut in here, I 
have been buzzed for a vote. I need to leave shortly and I 
would like to ask a couple of questions here, if we have caught 
most of your comments.
    Ms. Dickson. Yes, definitely.
    Chairman Brownback. I appreciate that greatly, and we will 
take all of your full statements into the record.
    [The prepared statement and an attachment of Ms. Dickson 
follow:]

       Statment of Elizabeth C. Dickson, U.S. Chamber of Commerce

    Mr. Chairman and members of the Committee, good morning. Thank you 
for the opportunity to testify today before the Immigration 
Subcommittee of the Judiciary Committee on the subject of Immigration 
Law in 21<SUP>}st</SUP> Century. I am Elizabeth. Dickson, a Human 
Resource Specialist and a member of the Global Mobility Services Team 
for Ingersoll-Rand Company. I am also Chair of the US Chamber of 
Commerce Subcommittee on Immigration. My testimony today reflects my 
direct experience with Ingersoll-Rand's ability to find vitally needed 
workers. I hope that I will be able to share with you some of the 
numerous policies and procedural issues that a company like Ingersoll-
Rand needs to contend with when hiring foreign nationals and complying 
with employer sanctions law.
    Ingersoll-Rand is a Fortune 200 company with about 50,000 direct 
employees worldwide, including 30,000 domestic employees. The company 
is a major diversified industrial equipment and components manufacturer 
serving the global growth markets of Climate Control, Industrial 
Productivity, Infrastructure Development and Security and Safety. Its 
international headquarters are based in Woodcliff Lake, New Jersey and 
in 2000 the company had annual sales in excess of $8.7 billion. 
Ingersoll-Rand Company operates manufacturing plants in over 21 
countries around the world and markets its products and services, along 
with its subsidiaries, through a broad network of distributors, dealers 
and independent sales and service/repair organizations. In 2000, the 
company had annual sales in excess of $8.7billion.
    As you have heard from the distinguished panelists today, 
immigration is a complex and politically charged issue. The tight labor 
market over the past several years has produced unemployment rates at a 
30 year low. The economy has been creating an abundant number of jobs 
at all levels to keep business like ours scrambling for employees. 
Immigration needs to be addressed as an alternate source of workers in 
the U.S. If immigration policies and procedures and not revitalized, 
the consequences may result in a further down turn in the economy and 
to companies seeking more often to move outside the boundaries of the 
U.S. borders. Companies like Ingersoll-Rand live this reality on a 
daily basis and when Human Resource Managers cannot fill key positions, 
they are forced to look outside the US to hire or outsource the work.
    Ingersoll-Rand prides itself on being an American company that 
strives to keep the majority of its manufacturing operation within the 
U.S. borders. We have manufacturing plants in 24 states and 120 
facilities located throughout the United States. Over 40% of our 
profits are tied to export sales. Unfortunately, market forces and the 
unavailability of U.S. workers have created a problem of identifying 
and retaining U.S. workers across the spectrum of skill levels. Let me 
give you some examples:
    1. Welders in Texas - The company manufactures a broad line of 
industrial machinery and equipment. The Rotary Drill Division based in 
Garland, Texas, is engaged in the design manufacture, and sale of 
rotary drill products with industrial, mining, and water well drilling 
applications. The division has annual sales in excess of $150 million. 
This Division has been looking for welders for major projects for some 
time. Welders are semi-skilled employees that are not considered 
professionals. It is a skill set that involves specific training 
however in order to perform the job competently and safely. The company 
has recruited for welding positions across the U.S. They have recruited 
at military installations, shipyards and through employment services. 
Ingersoll-Rand even has its own training schools for welders at the 
Road Machinery & Rotary Drill Divisions and has been unable to identify 
sufficient persons to attend this type of training to fill our needs. 
When the company did identify competent welders in Mexico, the process 
of obtaining even temporary work visas was too time-consuming and 
onerous to be considered a viable option.
    2. Technicians for the Air Solutions Group's service and repair 
business are also in short supply. We have identified skilled 
technicians at our I-R Canada operations who have the product knowledge 
and technical experience to service I-R compressors in the US, however 
as the products they would be servicing are manufactured in the US, not 
Canada, they would require work permits and there is no appropriate 
visa category to allow such skilled technicians to travel 
intermittently to the US to perform service on US-manufactured 
machinery.
    3. Experienced tool and die workers, with knowledge in stamping 
technology and machining are scarce. Our manufacturing plants in the 
Detroit area continue to experience difficulty-finding electricians for 
their manufacturing operations, with the automotive industry being 
primary competitors for such skilled workers. Electricians again 
require a number of years of training and apprenticeship to be a 
competent worker but are not considered professionals. The Human 
Resources Manager had identified some available electricians from 
Canada but there is no way to obtain appropriate work visas for such as 
skill without time-consuming and expensive process that smaller 
division cannot afford.
    4. As the company continues to expand it quality initiatives, 
Metrologists have become a professional occupation in very short 
supply. There are only about five universities in the US with Masters 
programs specializing in metrology and almost all the students enrolled 
in such programs are foreign nationals. Human Resource Managers advise 
me that they simply cannot find Americans to fill such positions. Our 
Waterject Cutting Systems business in Baxter Springs, Kansas and 
Farmington Hills, Michigan spent 20 months searching extensively using 
advertisements and professional recruiters to find an engineer 
experienced in industrial robotics and pressurized product development 
before finally hiring a qualified individual from Canada. Metallurgical 
Engineers have been an identified shortage occupation for years in the 
United States and are key contributors to machinery development 
projects for our mining and drilling products. Thermo King conducted a 
13 month search for a qualified Plastics Engineer for their product 
development team.
    5. Information Technology shortages runs the gamut from the highly-
experienced professional programmers and software engineers down to the 
technicians that support ``help desk'' functions. There appears to be a 
``skills gap'' in the United States as well, with the most advanced 
programmers and engineers coming from India, China and some of the 
Soviet-Block countries. When we recruit for particular skills such as 
Oracle database, UNIX and C++ programming or experienced programmers 
with web-based applications, few Americans qualify. Foreign nationals 
can only work as nonimmigrants in the US for a short period of time 
resulting in continuous turnover of certain key technology positions. 
Situations like this drive projects overseas, resulting in a loss of 
U.S. jobs and a decrease in U.S. spin-off revenue. This situation 
exemplifies not only the need for workers across the spectrum of skill 
levels.
    Through the media and other sources the business community hears 
the mantra, ``train U.S. workers; invest in the domestic workforce.'' 
We at Ingersoll-Rand and my members at the US Chamber do just this and 
more. We have training centers at almost all our manufacturing 
facilities--designed to improve technical manufacturing skills and meet 
our employees' personal needs; we collaborate with community colleges 
and vocational technical schools--providing certificate and college 
degree programs and sponsor distance learning on-site; we have a 
tuition reimbursement program for employees pursuing bachelor's and 
advanced degrees; we provide many corporate on-site training programs; 
and we encourage cultural exchanges from our facilities abroad in order 
to enhance diversity and awareness.
    Ingersoll-Rand remains a major contributor to US colleges and 
universities as well as national organizations such as the 
International Road Education Foundation, the National Hispanic 
Scholarship Fund, the National Urban League, the National Alliance for 
Business, and the US Chamber of Commerce Spirit of Enterprise Campaign, 
to name a few.
    Employers currently need and will continue to need workers of all 
skill levels. Through the US Chamber of Commerce and in coalition with 
businesses and trade associations across the spectrum, we seek a 
solution to the worker shortages at all levels. Specifically through 
the Essential Worker Immigration Coalition we are working toward a 
workable solution to the shortage of workers with less than a bachelors 
degree. Current law does not provide a viable vehicle to bring needed 
foreign workers into the US. From manufacturing facilities to nursing 
homes to restaurants and hotels, we are in dire need for employees, but 
are precluded from bringing them in through the existing H-2B temporary 
visa program. I have included some materials from the Essential Worker 
Immigration Coalition for your reference.
    The Chamber is also concerned with the policy issues surrounding 
spousal work authorization, and is working in coalition for several 
countries to reform US work authorization for spouses of certain intra-
company transfers. Another policy issue of concern to our committee is 
the lack of sufficient immigrant visa numbers for those lawful 
immigrants that wish to convert to permanent residence. We will be 
addressing this issue through the EWIC coalition and other 
organizations.
    With respect to the immigration process and procedures for 
processing applications, we are very concerned with the increasing 
processing times at both the Department of Labor and the Immigration 
and Naturalization Service. Nonimmigrant visa petitions routinely take 
more than 4 months to process. The agencies need to have tightened 
oversight and need to be made accountable for missed adjudication time 
lines. The agencies administering immigration policies need to work 
with each other and need to coordinate strategies to execute new law. 
For example, on January 19, 2001, the Interim Final regulations were 
issued to implement to the changes in immigration laws that were 
enacted in 1998. The regulations, contained in over 500 pages, are 
onerous and not timely. In fact the new Secretary of Labor has 
extending the period for comment until the end of this month. The US 
Chamber requested this extension and we are preparing comments on the 
proposed regulations. Over three years ago the documents acceptable for 
I-9 Employment Eligibility Verification were changed by law but 
employers are still waiting for revised regulations and a new I-9 Form 
to be issued by the Department of Labor. Two laws that were enacted in 
October of 2000, have very little guidance from either agency. This 
causes chaos at the service centers and the borders.
    Reform of the agencies is key. We are encouraged that the 
subcommittee is exploring all of the procedural and policy issues 
surrounding immigration law, and hope that some constructive solutions 
can be can be identified.
    Thank you for allowing me to testify. I look forward to any 
questions you may have.

                                <F-dash>

 Statement of Essential Worker Immigration Coalition, Washington, D.C.

                           Mission Statement
    The Essential Worker Immigration Coalition (EWIC) is a coalition of 
business, trad associations, and other organizations from across the 
industry spectrum concerned with the shortage of both skilled and 
lesser skilled (``essential worker'') labor. While all sectors of the 
economy have benefited from the extended period of economic growth, one 
significant impediment to continued growth is the shortage of essential 
workers With unemployment rates in some areas approahing zero and with 
continuing vigorous welfare -to-work, school-to-work, and other 
recruitment efforts, businesses are now finding themselves with no 
applicants of any kind for numerous job upenings. Reliance on market 
forces has proven to be unsuccessful. There simply are not enough 
people to meet the demand of our stong economy.
    The shortage of workers is of such magnitude that some of our 
industries refer to it as one of the most important business issues. 
Many firms are curtailing expansion plans because of a lack of 
available, qualified workers. Indeed, the Federal Reserve Board has 
noted many times the widespread shortage of essential workers 
throughout the united states and its impact on our economy. We believe 
that part of the solution involves allowing companies to hire foreign 
workers to fill the essential worker shortages. When companies can not 
fill jobs with U.S. workers, hiring foreign nationals should be a 
viable alternative.EWIC supports policies that facilitate the 
employment of essential workers by U.S. companies and organizations 
current immigration law and recent tightening of federal immigration 
policy have greatly curtained this potential source of workers. 
Comgress must take action to address the problems associated with the 
unprecedented job growth, low unemployment and corresponding inability 
to find domestic workers to meet the needs of American employers. 
Failure to do so risks American prosperity an dleadership in the global 
economy.
                             Reform Agenda
    The Essential Worker Immigration Coalition (EWIC) is a coalition of 
businesses, trade associations, and other organizations from across the 
industry spectrum concerned with the shortage of both semi-skilled and 
unskilled (``essential worker'') labor. This document lays out EWIC's 
principles for essential worker immigration reform.
      new legal immigration programs based on u.s. worker shortage
<bullet> Short-term: an effective H-2B-like program
<bullet> Long-term: an employment-based permanent residence for 
        essential workers through an application process that is 
        straightforward and quickly completed
  regularization of certain undocumented workers currently in the u.s.
<bullet> Establish a one-time mechanism to allow undocumented workers 
        in the U.S. to convert to a legal status--a conditional 
        employment-based status leading to permanent status
<bullet> Regularization initiatives should be matched to employability, 
        although not necessarily a particular employer:
 <bullet> the worker should document actual or prospective employment 
        to qualify
 <bullet> the employer documenting actual employment should be forgiven 
        for any employer sanctions violation
                workable immigration enforcement system
<bullet> Employer sanctions repeal (Immigration Reform and Control Act 
        of 1986)
<bullet> Employer sanctions repeal should be paired with an updated 
        legal immigration system to reduce undocumented immigration
               maintenance of existing worker protections
<bullet> A new immigration system should not result in any diminution 
        or expansion of current worker protections
                    Members (as of January 8, 2001)
American Health Care Association
American Hotel & Motel Assocation
American Immigration Lawyers Association
American Meat Institute
American Road & Transportation Builders Association
American Nursery & Landscape Association
Associated Builders and Contractors
Associated General Contractors
Building Service Contractors Association International
The Brickman Group, Ltd.
Carlson Hotels Worldwide and Radisson
Calson Restaurants Worldwide and TGI Friday's
Cracker Barrel Old Country Store
Harborside Helathcare Corporation
Ingersoll-Rand
International Association of Amusement Parks and Attractions
International Mass Retail Association
Manufactured Housing Institute
Nath Companies
National Assoication for Home Care
National Association of Chain Drug Stores
National Association of Home Builders
national Association of RV Parks & Campgrounds
National Council of Chain Restaurants
National Retail Federation
National Restaurant Association
National Roofing Contractors Association
National Tooling & Machining Association
National School Transportation Association Outdoor Amusement Business 
Association
Outdoor Amusement Business Association
Resort Recreation & Tourism Management
Truckload Carriers Association
US Chamber of Commerce
Walt Disney World Co.

    Chairman Brownback. First, Ms. Munoz, on the problems that 
you are hearing from my State, I would appreciate if you can--
and keep the confidentiality, but I would like to know what 
sorts of things you are seeing. You noted some of the profiling 
that you are hearing about. That is a cause of concern for me 
and so I would like to personally know about that.
    Ms. Munoz. Absolutely.
    Chairman Brownback. Ms. Dickson, I appreciated your 
comments about the nature of particular skill levels like 
welding. I took 4 years of welding in high school and still 
wasn't very good at it. I think this is an important item 
particularly for the manufacturing sector, and it is tough to 
be able to do it.
    Ms. Dickson. We actually have our own welding schools and 
we still can't fill the need.
    Chairman Brownback. Ms. Narasaki, you were not able to 
address the refugee issue, even though you noted its impact in 
Asia. Do you have thoughts as to why we have lowered that 
number that we are taking in so much that you could highlight 
in 30 seconds?
    Ms. Narasaki. Well, as you know, the limit is set each year 
by the administration, and I have to say we were very 
disappointed in President Clinton's decision to cut the levels 
over the last 2 years. As people have noted, there certainly is 
enough supply, and the United States relative to other 
countries really isn't doing its full share in terms of taking 
those refugees in.
    The refugee program from Southeast Asia has been winding 
down. There are concerns at least for some of the countries 
that it has been a little bit premature and that there are some 
people who really do have credible fears of persecution, but 
who have been forcibly returned to their countries. So we hope 
that is something that this Subcommittee will look into 
further.
    Chairman Brownback. Well, we will, and I look forward to 
your more in-depth comments on this because I think we clearly 
can do better and we need to do better, even if it is shifting 
from different parts of the world, but we need to do more.
    Let me just say, in conclusion, thank you very much and I 
am sorry I am having to rush, but we have got the tail-end of 
this vote. For a scene-setter hearing, you laid out a lot of 
work that I think could take a long period of time, but I 
appreciate your specificity with it, and I know as well your 
hearts to help us to move it on through.
    None of these are particularly easy issues, even though 
they are very important issues and they directly impact people 
across the country. So I am looking forward to working with you 
to move these through the overall process. I think we have got 
a good time to be able to do a number of these issues. I think 
if we can be careful and thoughtful and energetic about it, we 
can move these on forward.
    I will solicit yours and others' advice on how we do that. 
I have been around long enough to have hit my head up against 
enough brick walls to figure out there frequently is another 
way than just hitting the wall straight on, and I will need 
your expertise and thoughts on how to do that.
    Finally, I hope we all continue to put forward the positive 
message of what this is all about. This is good, this is who we 
are, this is who we will be in the future, and if we can 
continue to put it forward in that framework and not ``we/
they'' or ``the last one in, close the door'' philosophy, we 
are better people if we do it that way.
    We have a statement from Senator Leahy which we will insert 
into the record at this point.
    [The prepared statement of Senator Leahy follows:]

 Statement of Hon. Patrick J. Leahy, a U.S. Senator from the State of 
                                Vermont

    I would like to congratulate Senator Brownback for becoming the new 
Chairman of this subcommittee, and thank him for holding such a 
positive hearing to open his tenure. I am confident that we will be 
able to work together on many issues that have gone unresolved for too 
long, and I am hopeful that immigration policy can be an area of 
bipartisan cooperation in the 107<SUP>th</SUP> Congress. I also commend 
and congratulate Senator Kennedy for his decision to continue his long 
service to this Committee and to the Nation as the Ranking Member of 
the subcommittee.
    The varied witnesses on today's panels demonstrate that those who 
have pitted business and family immigration against each other have 
presented a false choice. With the commitment of our new Chairman and 
our dedicated Ranking Member, we can address both issues in a 
comprehensive way. Before hearing from these distinguished witnesses, I 
would like briefly to discuss a few of the immigration issues that I 
believe should be priorities in this Congress.
    Five years have now passed since Congress passed the Antiterrorism 
and Effective Death Penalty Act and the Illegal Immigration Reform and 
Immigrant Responsibility Act. Taken together, these bills contained a 
series of provisions that have seriously harmed our historic commitment 
to both refugees and to due process. Along with many of our colleagues, 
particularly Senator Kennedy, I have worked during the ensuing 
Congresses to correct the mistakes that a deeply partisan Congress made 
in 1996. With an evenly divided Senate and a Chairman who shares a 
strong commitment to refugees, I hope this Congress will be different.
    First, I look forward to working with Senator Brownback again in 
this Congress on the Refugee Protection Act. That bill, which I 
introduced with his cosponsorship and strong support in the 
106<SUP>th</SUP> Congress, would restrict the use of expedited removal, 
the process under which aliens arriving in the United States can be 
returned immediately to their native lands at the say-so of a low-level 
INS officer. Expedited removal was the subject of a major debate in 
this chamber in 1996, and the Senate voted to use it only during 
immigration emergencies. This Senate-passed restriction was removed in 
what was probably the most partisan conference committee I have ever 
witnessed. The Refugee Protection Act was modeled closely on that 1996 
amendment, and I am working with Senator Brownback on a Refugee 
Protection Act for the 107<SUP>th</SUP> Congress, which we hope to 
introduce next month.
    The use of expedited removal calls the United States' commitment to 
refugees into serious question. We now have a system where we are 
removing people who arrive here either without proper documentation or 
with proper documentation that an INS officer simply suspects is 
invalid. This policy ignores the fact that people fleeing despotic 
regimes are quite often unable to obtain travel documents before they 
go: They must move quickly and cannot depend upon the government that 
is persecuting them to provide them with the proper paperwork for 
departure. In the limited time that expedited removal has been in 
operation, we already have received reliable reports that valid asylum 
seekers have been kicked out of our country without the opportunity to 
convince an immigration judge that they faced persecution in their 
native lands. To provide just one example, a Kosovar Albanian was 
summarily removed from the United States after the civil war in Kosovo 
had already made the front pages of America's newspapers. I believe we 
must address this issue this year, and I know that Senator Brownback 
feels the same way.
    Second, I hope that this subcommittee will examine the serious due 
process concerns that remain unresolved from the passage of the 1996 
legislation. Congress expanded the pool of people who could be 
deported, denied those people the chance for due process before 
deportation, and made these changes retroactive, so that legal 
permanent residents who had committed offenses so minor that they did 
not even serve jail time suddenly faced removal from the United States. 
This new legal regime has created numerous horror stories, including 
the removal of noncitizen veterans of the American armed forces for 
minor crimes committed well before 1996. In the last Congress, I 
introduced a bill that would have guaranteed due process rights for 
veterans, a bill that was supported by the American Legion and other 
veterans' groups, and I plan to introduce similar legislation this 
year. In addition, I was a proud cosponsor of Senator Kennedy's 
Immigrant Fairness Restoration Act, which would have restored a broad 
range of due process rights to immigrants. I look forward to supporting 
similar legislation this year, and I hope that the Chairman will be 
willing to hold hearings on this important issue.
    Third, this subcommittee should consider the proposals that were 
included in the Latino and Immigrant Fairness Act in the 
106<SUP>th</SUP> Congress. Despite the best efforts of many Senators, 
the majority would not allow a vote on that bill, either freestanding 
or as an amendment to other legislation. These proposals--to treat 
people who fled right-wing dictatorships the same way we treat people 
who fled left-wing dictatorships, to update the date of registry to 
allow people who have been living and working in the United States for 
15 years or more to apply for permanent residency, and to protect 
families by restoring the law that allowed people eligible for green 
cards to apply from within the United States--deserve serious 
examination, and I hope this subcommittee can take on that task.
    Finally, we need to pay close attention to the immigration needs of 
American employers. I supported increasing the number of H-1B visas 
last year because I was convinced that the information technology 
industry and other businesses needed flexibility to continue their 
growth. I am very interested in hearing what immigration measures 
today's witnesses believe would be helpful to ensure that our economy 
remains healthy.

    Chairman Brownback. Thank you all very much. I apologize 
for rushing out, but I am sure we will see you at future 
hearings.
    The hearing is adjourned.
    [Whereupon, at 3:30 p.m., the Subcommittee was adjourned.]
    [A submission for the record follows:]

                       SUBMISSION FOR THE RECORD

  Statement of Hon. Mike DeWine, a U.S. Senator from the State of Ohio

    Thank you, Chairman Brownback and Ranking Democrat Kennedy, for 
holding this important hearing today to examine the state of our 
immigration policy. This hearing is timely and necessary. In fact, just 
today, Secretary of State Powell and Attorney General Ashcroft are 
meeting with a high level Mexican delegation to talk openly about 
immigration policy. I am hopeful that this meeting will be one of many 
future discussions on U.S.--Mexican immigration.
    As you all know, the immigration process impacts not only American 
economic competitiveness and diplomatic relations, but more 
importantly, it directly affects families and children. Tragically, 
families are often split up because of deficiencies and delays in the 
immigration and naturalization process.
    In the 106<SUP>th</SUP> Congress, to help address one such problem, 
I cosponsored Senator Nickles' bill, the ``Adopted Orphans Citizenship 
Act,'' which amended the Immigration and Nationality Act to enable 
children adopted from foreign countries to attain U.S. citizenship more 
easily. This bill became law in October 2000. I hope we can do much 
more to improve our immigration system this year.
    Today, we will hear testimony on the merits of family-based and 
employment-based criteria in determining immigration and citizenship 
status. Family reunification the cornerstone of America's immigration 
policy and must remain so. However, in an increasingly global economy, 
America's future competitiveness requires us to take a look at how 
immigration can make our economy stronger.
    While a discussion of immigration policy goals is important, I'd 
like to take a moment, Mr. Chairman, to call the Subcommittee's 
attention to the process that implements these policies. I am speaking 
of the operations of the Immigration and Naturalization Service (INS). 
It appears that although the INS consistently has received more money 
from Congress year after year, services have not improved. Management 
and personnel problems in the INS, coupled with a growing numbers of 
immigrant applications, are leading to backlogs all around the country.
    Let me give a few examples from my home state of Ohio. This time 
last year, my casework office had 67 pending immigration cases. This 
year, due to the backlog at the INS, we have 147. In Cleveland, the INS 
office takes about 18 months to process a naturalization case, much 
longer than the INS's goal of 8-12 months.
    For some applicants, this delay can cost them their jobs, which 
also presents a problem for their American employers. Worse still, 
extensive delays threaten applicants' ability to even remain in this 
country.
    Our friend and former Senate colleague--and now Secretary of 
Energy--Spence Abraham--noted when he was Chairman of this 
Subcommittee, that we have come to a point where we need to consider 
fundamental reform of the INS. This Subcommittee has started that 
process. We've begun to carefully examine ways to improve efficiency in 
the INS, including ways to restructure the INS with respect to services 
and law enforcement. As a result, the INS has made minor changes. 
However, no agreement on a complete and viable solution has been 
reached. I am hopeful that we will continue to work on proposals that 
will improve the functioning of the INS, which ultimately, will be to 
the benefit of those immigrants who come to our country legally.
    In summary, Mr. Chairman, we are a nation of immigrants--immigrants 
who came to these shores in pursuit of freedom, hope, and opportunity. 
As the Subcommittee on Immigration, we have a mandate to ensure that 
the proper development and execution of a fair immigration policy--one 
that looks out for the welfare of both American citizens and 
immigration applicants. As a new member of this Subcommittee, I look 
forward to working with our new Chairman, as well as a former Chairman, 
Senator Kennedy, to move our immigration policies in a positive 
direction.

                                   - 

</pre></body></html>
